No. ______

In The

Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH AND BISHOP
ARTHUR HODGES III,
Petitioners,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS THE
GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
BEFORE JUDGMENT
CHARLES S. LiMANDRI
Counsel of Record
PAUL M. JONNA
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
(858) 759-9930
cslimandri@limandri.com
Counsel for Petitioners
South Bay United
Pentecostal Church and
Bishop Arthur Hodges III

THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. WASHINGTON ST.,
STE. 1250
CHICAGO, IL 60606
(312) 782-1680
HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 POST ST., STE. 700
SAN FRANCISCO, CA 94108
(415) 433-1700

i
QUESTIONS PRESENTED
Once again, Petitioners South Bay United
Pentecostal Church and Bishop Arthur Hodges III
(“South Bay”) must seek relief from this Court.
California, in revising its reopening restrictions
under a new “Blueprint” framework, exacerbates its
discrimination and disparate treatment toward
Places of Worship. While millions of Californians in a
range of industries resumed business while observing
mask-wearing and social distancing protocols, church
services remain a disfavored activity in the eyes of
the State and the County of San Diego.
Similar scenarios playing out in other states
generated a myriad of cases requesting stays and
injunctions, several of which rose through appellate
courts and were submitted to this Court for review.
Lower courts are divided as to the constitutional
standard for reviewing Free Exercise challenges to
pandemic restrictions. Courts in the Fifth and Sixth
Circuits have upheld claims under the Free Exercise
Clause, applying strict scrutiny review, while Courts
in the Second, Seventh, and Ninth circuits have
rejected such claims, often relying in part on this
Court’s decision in Jacobson v. Massachusetts as
justification for their excessive deference to the State.
The Questions Presented are:
1. Do Governor Newsom’s lockdown orders and
reopening restrictions under the “Blueprint”
framework, placing strict limitations, including
closures, on all Places of Worship in California,

ii
violate South’s Bay’s First Amendment right to Free
Exercise of Religion?
2. What is the proper standard of review for the
challenges to State and County restrictions upon
Free Exercise of Religion rights during a pandemic,
and does Jacobson v. Massachusetts impose extra
limitations to this Court’s established line of Free
Exercise jurisprudence during a pandemic?

iii
PARTIES AND RULE 29.6 STATEMENT
The following list provides the names of all parties
to the present Petition for a Writ of Certiorari Before
Judgment, and the proceedings below:
Petitioners are SOUTH BAY UNITED PENTECOSTAL
CHURCH and BISHOP ARTHUR HODGES III. Both are
Plaintiffs in the U.S. District Court for the Southern
District of California and Appellants in the U.S.
Court of Appeals for the Ninth Circuit. Applicant
South Bay United Pentecostal Church is a non-profit
corporation with no parent company or stockholders.
Respondents are GAVIN NEWSOM, in his official
capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney
General of California, SANDRA SHEWRY, in her official
capacity as Acting California Public Health Officer,
WILMA J. WOOTEN, in her official capacity as Public
Health Officer, County of San Diego, HELEN
ROBBINS-MEYER, in her official capacity as Director
of Emergency Services, County of San Diego, and
WILLIAM D. GORE, in his official capacity as Sheriff of
the County of San Diego. All are Defendants in the
U.S. District Court for the Southern District of
California and Appellees in the U.S. Court of Appeals
for the Ninth Circuit.
LIST OF ALL PROCEEDINGS
U.S. Supreme Court, No. 19A1044, South Bay
United Pentecostal Church v. Newsom, application

iv
for an injunction pending appellate review denied
May 29, 2020.
U.S. Court of Appeals for the Ninth Circuit, No.
20-55533, South Bay United Pentecostal Church v.
Newsom, motion for an injunction pending appeal
denied May 22, 2020, and motion for limited remand
to supplement the record and address California’s
“Blueprint for a Safer Economy” granted July 29,
2020.
U.S. District Court for the Southern District of
California, No. 3:20-cv-00865, South Bay United
Pentecostal Church v. Newsom, order denying motion
for temporary restraining order entered on May 15,
2020, order denying motion for an injunction pending
appeal entered on May 18, 2020, and order denying
renewed motion for a temporary restraining order /
preliminary injunction on limited remand, and
denying an injunction pending appeal, entered on
October 15, 2020.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
SOUTH BAY UNITED PENTECOSTAL CHURCH discloses
the following. There is no parent or public held
company owning 10% or more of Petitioner’s stock.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED ...................................... i
PARTIES AND RULE 29.6 STATEMENT ............. iii
LIST OF ALL PROCEEDINGS ............................... iii
TABLE OF CONTENTS ........................................... v
TABLE OF AUTHORITIES ..................................... ix
LIST OF DECISIONS BELOW ................................ 1
JURISDICTION ........................................................ 1
CONSTITUTIONAL PROVISIONS ......................... 3
INTRODUCTION ...................................................... 3
FACTUAL AND PROCEDURAL BACKGROUND . 6
A.

California’s Lockdown Orders ..................... 6

B.
The Stabilization of the Pandemic in
California: Resilience Roadmap ............................ 7
C.

New Criteria: Blueprint to a Safer Economy
9

D.
Plaintiffs Bishop Hodges and South Bay
Pentecostal Church. ............................................. 17
E.

Public Protests............................................ 18

vi
F.

Singing and Chanting Restrictions ........... 19

G.

Proceedings Below and Across the Country.
19

REASONS FOR GRANTING THE WRIT .............. 22
1.
The Conflicting Decisions of the Lower
Courts Create Troubling Precedent for Free
Exercise Challenges to Lockdown Orders and
Reopening Restrictions ........................................ 23
1.1.
The Ninth, Seventh, and Second
Circuits have Denied Injunctive Relief for
Governors’ Executive Orders that Restrict the
Right of Free Exercise ...................................... 23
1.2.
The Fifth and Sixth Circuits have
Granted Injunctive Relief for Governors’
Executive Orders that Restrict the Right of Free
Exercise ............................................................ 27
1.3.
The Ninth, Seventh and Second Circuits’
Approaches Misinterpret the Neutrality and
General Applicability Test in Smith and
Directly Conflict with this Court’s Post-Smith
Line of Free Exercise Jurisprudence in Lukumi,
Lutheran and Espinoza .................................... 29
2.
Governor Newsom’s Restrictions on South
Bay’s Free Exercise Rights Clash with this Court’s
Precedents. ........................................................... 31

vii
2.1.
Governor Newsom’s Executive Orders
and Blueprint Restrictions fail the Neutrality
Test. 31
2.2.
Governor Newsom’s Executive Orders
and Blueprint Restrictions fail the General
Applicability Test. ............................................ 32
2.2.1. Secular Activities are Treated More
Favorably ...................................................... 32
2.2.2. Singing is Arbitrarily Given Much
Greater Weight as a Risk Factor ................. 34
2.3.
Governor Newsom’s Executive Orders
and Blueprint Restrictions are not Narrowly
Tailored to Serve a Compelling State Interest.
36
2.3.1. The Orders Fail Even Generic Equal
Protection. ..................................................... 37
2.3.2. The Orders Fail Regular Free Exercise
Analysis ......................................................... 39
3. The Other Preliminary Injunction Factors
Favor South Bay .................................................. 42
3.1.
South Bay Will Suffer Irreparable Harm
Without Injunctive Relief. ............................... 42
3.2.
The Balance of Equities Tips Sharply in
South Bay’s Favor. ........................................... 42

viii
3.3.
The Relief Sought is in the Public
Interest. ............................................................ 43
CONCLUSION ........................................................ 43

ix
TABLE OF AUTHORITIES
CASES

Page

Agudath Israel of Am. v. Cuomo ........................26, 43
___ F.3d ___, 2020 WL 6559473 (2d Cir. 2020)
Am. Trucking Ass’ns, Inc. v. Gray ...........................19
483 U.S. 1306 (1987)
Calvary Chapel Dayton Valley v. Steve Sisolak .3, 22,
24, 37, 39
140 S. Ct. 2603 (2020)
Cantwell v. Connecticut ............................................29
310 U.S. 296 (1940)
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah ........................................ 20, 22, 24, 29, 30
508 U.S. 520 (1993)
Coll. Republicans at San Francisco State Univ. v.
Reed .....................................................................42
523 F. Supp. 2d 1005 (N.D. Cal. 2007)
Elim Romanian Pentecostal Church v. Pritzker ... 25,
26
962 F.3d 341 (7th Cir. 2020)
Elrod v. Burns ..........................................................42
427 U.S. 347 (1976)
Employment Division v. Smith ..........................25, 29
494 U.S. 872 (1990)

x
Espinoza v. Montana Department of Revenue ..22, 29,
30
140 S. Ct. 2246 (2020)
Ex Parte Milligan ...................................................... 6
71 U.S. 2 (1866)
First Pentecostal Church of Holly Springs v. City of
Holly Springs, Mississippi ..................................28
959 F.3d 669 (5th Cir. 2020)
Gonzales v. O Centro Espirita Beneficente Uniao do
Vegetal .................................................................40
546 U.S. 418 (2006)
Harvest Rock Church, Inc. v. Newsom..... v, 24, 25, 31
977 F.3d 728 (9th Cir. 2020)
Home Bldg. & Loan Ass’n v. Blaisdell ...................... 5
290 U.S. 398 (1934)
Jacobson v. Commonwealth of Massachusetts i, ii, 19,
20, 24, 37, 39
197 U.S. 11 (1905)
Joelner v. Vill. of Washington Park .........................42
378 F.3d 613 (7th Cir. 2004)
Little Sisters of the Poor Home for the Aged v.
Sebelius................................................................18
571 U.S. 1171 (2014)
McCullen v. Coakley .................................................41
573 U.S. 464 (2014)
N.Y. Progress & Prot. PAC v. Walsh ........................43
733 F.3d 483 (2d Cir. 2010)

xi
Ohio Citizens for Responsible Energy, Inc. v. NRC .18
479 U.S. 1312 (1986)
Planned Parenthood Ctr. for Choice v. Abbott ........19
No. A-20-CV-323-LY, 2020 WL 1502102 (W.D.
Tex. Mar. 30, 2020)
Roberts v. Neace ........................................................23
958 F.3d 409 (2020)
S. Bay United Pentecostal Church v. Newsom . iii, 16,
40
140 S. Ct. 1613 (2020)
S. Bay United Pentecostal Church v. Newsom ... iii, v,
16, 17, 20, 22, 23, 26
959 F.3d 938 (9th Cir. 2020)
S. Bay United Pentecostal Church v. Newsom .. iii, iv,
15, 16, 17, 18
No. 20-CV-865-BAS-AHG, 2020 WL 2529620
(S.D. Cal. May 18, 2020)
S. Wind Women’s Ctr. LLC v. Stitt ..........................15
No. CIV-20-277-G, 2020 WL 1677094 (W.D.
Okla. Apr. 6, 2020)
Trinity Lutheran v. Comer .................................19, 28
137 S. Ct. 2012 (2017)
Walz v. Tax Comm’n of New York City ....................27
397 U. S. 664 (1970)
Wheaton Coll. v. Burwell ..........................................19
573 U.S. 958 (2014)

xii
CONSTITUTIONS, STATUTES & RULES
28 U.S.C. § 1254(1) .....................................................v
28 U.S.C. § 1292(a)(1) .............................................. iv
28 U.S.C. § 1331 ....................................................... iv
28 U.S.C. § 1343 ................................................... iv, 2
28 U.S.C. § 1651 ................................................. v, 1, 2
28 U.S.C. § 1651(a) ...................................................18
28 U.S.C. § 2101(e) .................................................v, 2
28 U.S.C. § 2201 ................................................... iv, 2
28 U.S.C. § 2202 ....................................................... iv
Fed. R. App. P. 12.1 ................................................v, 2
S. Ct. Rule 20 ............................................................. 1
S. Ct. Rule 22 ............................................................. 1
S. Ct. Rule 23 ............................................................. 1
S. Ct. Rule 29.6 ........................................................... i
U.S. Const. amend. I iv, v, 1, 3, 20, 21, 23, 25, 26, 27,
34, 36, 38

1
LIST OF DECISIONS BELOW
All decisions in this case in the lower courts are
styled South Bay United Pentecostal Church v.
Newsom. The May 15 unpublished district court
order denying a temporary restraining order is
available at 2020 WL 2814636. App. A. The May 18
unpublished district court order denying an
injunction pending appeal is available at 2020 WL
2529620. App. E.
The May 22 published Ninth Circuit order
denying an injunction pending appeal is available at
959 F.3d 938. App. D. The May 29 published
Supreme Court order denying an application for a
writ of injunction is available at 140 S. Ct. 1613.
App. C.
The July 29 Ninth Circuit order granting limited
remand is unreported. App. B. The unpublished
October 15 district court order denying a renewed
motion for a temporary restraining order, and
denying an injunction pending appeal, is available at
2020 WL 6081733. App. A.
JURISDICTION
South Bay filed its original complaint challenging
California’s restrictions on churches under the First
Amendment’s Free Exercise Clause on May 8, 2020,
and filed amended complaints on May 11 and July 17,
2020. On May 11, South Bay filed an emergency
motion for a temporary restraining order or
preliminary injunction. The district court had

2
jurisdiction under 28 U.S.C. §§ 1331 and 1343, and
authority to issue declaratory and injunctive relief
under 28 U.S.C. §§ 1343 and 2201–02.
The United States District Court for the Southern
District of California denied South Bay’s motion on
May 15, 2020. South Bay filed a timely notice of
appeal. The United States Court of Appeals for the
Ninth Circuit has jurisdiction over South Bay’s
interlocutory appeal under 28 U.S.C. § 1292(a)(1). On
July 29, the Ninth Circuit ordered limited remand to
the trial court to supplement the record and make
additional findings of fact. Under Fed. R. App. P. 12.1,
this limited remand did not divest the Ninth Circuit
of jurisdiction. Following the District Court’s denial
of South Bay’s renewed motion and denial of an
injunction pending appeal, the Ninth Circuit ordered
supplemental briefing, which is now complete. Oral
argument is not yet scheduled before the Ninth
Circuit.
This Court’s jurisdiction is invoked under 28
U.S.C. §§ 1254(1) and 2101(e). Because this matter is
time sensitive, South Bay files this petition before the
Ninth Circuit has ruled, under Supreme Court Rule
11. South Bay expects that by the time the Court
considers the petition, the Ninth Circuit will have
issued an opinion. Either way, as explained below,
the petition warrants this Court’s immediate review
and resolution before the end of the Court’s 2020
Term.

3
CONSTITUTIONAL PROVISIONS
The First Amendment provides in pertinent part:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof, or abridging the freedom
of speech, or of the press; or the right of the
people peaceably to assemble, and to petition
the Government for a redress of grievances.
U.S. Const. amend. I.
INTRODUCTION
In the first few months following the widespread
implementation of COVID-19 restrictions by various
state governors, this Court rejected two applications
for emergency injunctive relief from pandemic
restrictions that prevented the Free Exercise of
religious beliefs. The first application, brought by
Petitioners here, challenged the restrictions in
Governor Newsom’s executive order and California’s
“Resilience Roadmap” against in-person worship
services. This Court’s denial was accompanied by a
brief concurrence by Chief Justice Roberts, and a
vigorous dissent by Justice Kavanaugh, joined by
Justices Thomas and Gorsuch. App. 43a–49a. The
second application, Calvary Chapel Dayton Valley v.
Steve Sisolak, challenging Nevada’s COVID-19
restrictions against churches, was also denied by this
Court on July 24, 2020, with no elaboration, but
elicited a lengthy dissent from Justice Alito, which
was joined by Justice Thomas and Justice

4
Kavanaugh, and separate dissents by Justice
Gorsuch and Justice Kavanaugh. 140 S. Ct. 2603
(2020).
It has now been eight months since the COVID-19
pandemic began and many states, including
California, initiated two-week “lockdowns” in an
attempt to slow the spread of the virus. The stated
goal to justify such extreme measures was to “flatten
the curve” so that hospitals would not be
overwhelmed and lives unnecessarily lost. At that
time, little was known about how the novel
coronavirus spread. Recognizing that a complete
shutdown of human activity would be impossible,
Governor Newsom designated certain “sectors” as
“essential,” thus permitting various businesses or
organizations to continue operating during the
lockdown, as long as they complied with industry
guidelines. Places of Worship were excluded from
“essential” activities, and a small concession
categorized clergy as essential only while working
remotely. Governor Newsom compounded his error
by designing burdensome barriers for the ability of
religious congregations, such as Petitioner South Bay,
to practice their faith within both the “Resilience
Roadmap” of May 7, 2020 and, even more egregiously,
through its successor, the “Blueprint to a Safer
Economy” of August 27, 2020.
No one can deny that the Founders of our Country
considered religious liberty, with its prominent place
at the head of guaranteed protections in the Bill of
Rights, to be a freedom that should be unassailable
from attack by any government actor, absent a

5
compelling interest, even in the case of an emergency.
This Court has recognized that an “[e]mergency does
not increase granted power or remove or diminish the
restrictions imposed upon power granted or
reserved,” and that constitutional limitations on the
powers of the States “are questions which have
always been, and always will be, the subject of close
examination under our constitutional system.” Home
Bldg. & Loan Ass’n v. Blaisdell, 290 U.S. 398, 425–
26 (1934).
However, the pandemic “emergency” has been
used to justify the broad overreach of the police power
of the State with regard to religious expression,
effectively transforming our cherished freedom of
worship from a “first class right” into a “second class
right.” Thus, the urgency of the current need to
reaffirm the First Amendment as a bastion of
religious liberty is undeniable. This Court is the last
resort for restoring religious freedom to its proper
place as a “first class right” for the vast number of
Americans who practice their religion faithfully, for
whom each day that passes without being able to
access their Places of Worship to pray, when prayer
is needed more than ever, clearly constitutes
irreparable harm. It is during the most difficult times
of our country, including a nationwide pandemic,
that we cannot afford to let tyranny against religion
rise in the guise of well-meaning police power of the
State. This Court reminded us more than 150 years
ago, in the aftermath of the Civil War, “[n]o doctrine,
involving more pernicious consequences, was ever
invented by the wit of man than that any provisions
[of the Bill of Rights] can be suspended during any of

6
the great exigencies of government.” Ex Parte
Milligan, 71 U.S. 2, 121 (1866).
FACTUAL AND PROCEDURAL
BACKGROUND
A. California’s Lockdown Orders
On March 4, 2020, California Governor Gavin
Newsom proclaimed a State of Emergency as a result
of the threat of the pandemic known as COVID-19.
3ER332. Two weeks later, on March 19, 2020, the
Governor ordered all individuals living in the State
of California to stay home. 3ER533. 1 This order,
however, gave some Californians the right to leave
their residence, such as workers “needed to maintain
continuity of operations of the federal critical
infrastructure sectors” as well as 13 essential
industries Governor Newsom viewed as “critical to
protect the health and well-being of all Californians.”
3ER536.
The list of essential critical industries included
the Hollywood movie industry, but excluded Places of
Worship. 3ER558. Buried in the list of “Essential
Workforce, if remote working is not practical” within
Sector 8. Government Operations and Other
Community-Based Essential Functions, we find the
State’s only mention of religious-related activity,
permitting “Clergy for essential support and faithThe now 16 volumes of the Excerpts of Record are located at
9th Cir. Dkt. Nos. 3 and 82.
1

7
based services that are provided through streaming
or other technologies that support physical
distancing and state public health guidelines.”
3ER551. Of the list of 18 workforce descriptions in
this sector, clergy providing faith-based services is
the only category restricted from working in person,
directly contradicting the list’s label. 3ER551. Places
of Worship were closed to the public and all religious
leaders were prohibited from conducting in-person
religious services, regardless of the measures taken
to reduce or eliminate the risk of the virus spreading.
The inclusion of Hollywood on this list of
“essential” businesses permitting in-person activities
reveals that California was not granting “essential”
operating privileges solely on the basis of whether
they were needed to protect health and safety. But,
at the time, South Bay, like many other churches,
decided to do its part by voluntarily adhering to these
requirements. San Diego County’s public health
department issued orders alongside Governor
Newsom’s, which were generally identical to the
Governor’s but sometimes more restrictive. See
3ER589–97; 6ER1108–10 (discussing San Diego’s
specific ban on drive-in worship).
B. The Stabilization of the Pandemic in
California: Resilience Roadmap
Seven weeks in, the pandemic had, in the
Governor’s words, “stabilized.” 3ER324–25; 2ER224–
67, 314–20. As a result, on May 7, 2020, the Governor
published his four-stage “Resilience Roadmap”—the
California reopening plan which granted more

8
Californians the right to leave their residence.
3ER560. In assigning types of businesses to stages 1–
4, Governor Newsom explicitly stated that
California’s reopening plan weighed the risk of a
COVID-19 outbreak with the “reward” of the value of
the business. 3ER512. The Resilience Roadmap
placed religious services in Stage 3 along with
theatres, museums and bars, instead of Stage 2,
which included retail and dine-in restaurants.
3ER568.
After seven weeks of Stage 1, however,
Californians had enough—and on May 8, 2020,
Governor Newsom moved California to Stage 2a of
his Resilience Roadmap—opening retail for curbside
pickup and manufacturing/warehousing. 13ER2980–
85, 3056–69; 14ER3207–61; 12ER2601–04. On
Wednesday, May 20, California let San Diego move
ahead to Stage 2b, including permitting restaurants
and malls to reopen. 13ER2985–86; 12ER2605–19.
On Memorial Day, Governor Newsom announced
changes to his Resilience Roadmap with respect to
constitutionally-protected protesting and worship
activities. With respect to both, Governor Newsom
permitted individual counties to apply for 21-day
licenses during which worship and protest would be
permitted so long as the gathering did not exceed 25%
of “building capacity” or “the relevant area’s
maximum occupancy,” and with a maximum cap of
no more than 100 persons. 13ER2986–87. However,
California remained in “Stage 2.” Alongside this
change, Governor Newsome published industry
guidance for “Places of Worship,” 13ER3070–83, and

9
updated the Q&A page on the coronavirus website
concerning political protests. 13ER3084–93.
The next day, May 26, 2020, Governor Newsom
also announced that hair salons and barbershops
could reopen (moving them from “Stage 3” to “Stage
2”). 13ER2987; 12ER2620–26. On May 27, 2020, San
Diego received its first 21-day worship/protest license
and issued a series of orders granting permission to
worship. 13ER2987; 14ER3262–307.
On June 12, Governor Newsom changed, without
public announcements, the industry guidance for
“Places of Worship” and the Q&A page concerning
protests, lifting restrictions on them when they
occurred outdoors—but continued the 100-person cap
or 25% occupancy limit for indoor worship or
protesting. 13ER2988, 3094–117.
On July 6, 2020, Governor Newsom changed the
industry guidance for “Places of Worship” and the
Q&A page concerning political protesting and added
a ban on “indoor singing and chanting activities.”
13ER2988, 3118–41. Then, on July 13, 2020,
Governor Newsom banned 30 counties from
conducting many indoor activities, including worship
and protest. 13ER2988, 3142–45; 14ER3146–60. This
included small gatherings of worshippers in homes.
12ER2635–41.
C. New Criteria: Blueprint to a Safer Economy
On August 28, 2020, an entirely new bureaucratic
scheme: the “Blueprint for a Safer Economy,”

10
superseded the Resilience Roadmap and its County
Monitoring List. 5ER885–907. No longer able to
document his claim of a statewide “health emergency”
with a statistically significant number of COVIDcaused deaths or hospitalizations in a population of
40 million, see 5ER640–675, and despite mounting
evidence that the COVID-19 lockdown may be killing
more people than it is saving, see 12ER2840;
5ER727–728, Governor Newsom changed the
parameters for evaluating the impact of COVID-19,
to focus on the number of cases rather than the
number of deaths or hospitalizations.2

Prior County metrics: (1) 10% or greater increase in average
COVID-19 hospitalizations during the past 3 days; (2) Fewer
than 20% of ICU beds available; and (3) Fewer than 25% of
ventilators available. See 13ER2856–2857.
2

11
Anyone who tests positive for the virus in
California has a “case” of COVID-19, even if the
person tested was asymptomatic or only mildly
affected, never required hospitalization or even a
doctor’s visit. The Blueprint assigns counties to four
color-coded “tiers” of “risk” which is totally reliant on
the amount of testing plus the number of positive
case results regardless of severity. 8ER1733–55.3
Higher Risk
Lower Risk
of Community Disease Transmission***

Measure
Adjusted Case Rate for
Tier Assignment **

Widespread
Tier 1

Substantial
Tier 2

Moderate
Tier 3

Minimal
Tier 4

>7

4-7

1-3.9

<1

>8%

5-8%

2-4.9%

<2%

(Rate per 100,000
population* excluding
prison cases^, 7 day
average with 7 day lag)
Testing Positivity^
(Excluding prison
cases^, 7 day average
with 7 day lag)

“Purple” tier - Widespread: more than 7 “cases”
per day per 100,000 people and more than 8%
positive tests. In this tier “many non-essential indoor
business operations are closed.” Places of Worship,
since they are classified as non-essential, are not
allowed to open. Services must be held outdoors only.
The counties continue to keep track of the impact upon the
hospitals, etc., but it is no longer the determinative criterion
that determines what tier the county is placed in under the
Blueprint restrictions.
3

12
Under the original definition of the “purple” tier, the
following activities were permitted to reopen indoors
at full or (where indicated below) reduced indoor
capacity, and with the proviso that “counties can
restrict further,” 8ER1751–55:
o “Essential” retail
businesses (e.g.,
liquor stores,
cannabis
dispensaries)

o Farmer’s markets
Florists (25%)
o Gas stations
o Grocery stores (50%)

o All government offices o Hair Salons and
Barbershops
o All “essential retail”
offices
o Higher education
institutions (in “certain
o Appliance Repair
indoor settings, like
Shops
labs and studio arts”)
o Auto Repair Shops
o Home improvement
stores (25%)
o Banks and Credit
Unions
o Pharmacies
o Bookstores (25%)
o Hotels
o Carwashes
o Hotel fitness centers
o Childcare
(50%)
o Convenience stores

o Jewelry stores (25%)

o Day Camps (including o Laundromats
indoor facilities)
o Libraries (25%)
o Doctors and Dentists

13
o Dry Cleaners

o Non-essential retail
(e.g., toy stores) (25%)
o Pet Groomers4

“Red” tier - Substantial: 4–7 “cases” per day per
100,000 people and 5–8% positive tests. In this tier,
“some non-essential indoor business operations are
closed.” Places of Worship, considered a non-essential
indoor business, may open, but with a cap of 25% or
100 people whichever is fewer.
“Orange” tier - Moderate: 1–3.9 “cases” per day
per 100,000 people and 2–4.9% positive tests. In this
tier, “some indoor business operations are open with
modifications.” Places of Worship are allowed 50%
capacity or 200 people, whichever is fewer. Retail,
Shopping centers, personal care services, hair salons
and barbershops have no capacity restrictions.
Museums, Zoos and Aquariums can open up to 50%
with no hard cap.
“Yellow” tier: - Minimal: less than one “case”
per day per 100,000 people and less than 2% positive
Subsequently, California determined that “Personal Care
Services” including “esthetic, skin care, electrology, nail services,
body art professionals, tattoo parlors, and piercing shops, and
massage therapy” could also open indoor in the “purple” tier. See
https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Docu
ment%20Library/COVID-19/Dimmer-FrameworkSeptember_2020.pdf; https://files.covid19.ca.gov/pdf/guidanceexpanded-personal-care-services--en.pdf.
4

14
tests. In this tier, “most indoor business operations
are open with modifications.” 5ER903– 905. Places of
Worship are still subject to 50% capacity restrictions.
No capacity restrictions for Museums, Zoos and
Aquariums.
In addition to the designation of risk for each
county, the Blueprint utilizes a risk/reward ratio to
determine the level of reopening allowed for various
categories of nonessential activities. The Industry
Guidance previously issued on April 28, 2020 now
include a colored-coded chart for each Industry,
which show the restrictions as applied for each tier of
risk. The specific “Industry Guidance” for churches
provides the following limitations, depending on
what tier the county is in. 8ER1753.

15

Notably, the Blueprint has no provision for
returning to full liberty. Even the “yellow” risk tier,
in which less than one “case” per day can be found per
100,000 people, only permits 50% church capacity.
There is no “green” tier in the Blueprint because, as
the Governor explained, “[w]e don’t put up green
because we don’t believe that there’s a green light
that says just go back to the way things were or back
to the pre-pandemic mindset.”5
After the new Blueprint framework was
announced, San Diego was placed in the red
“substantial” tier. Places of Worship were included
among the “some nonessential” businesses allowed to
open indoors during that time with capacity
restrictions. On November 10, 2020, San Diego
Gov. Newsom Outlines California’s New Simplified, 4-Tier
COVID-19 Reopening Guidelines, CBS SF BAYAREA (Aug. 28,
2020), https://sanfrancisco.cbslocal.com/2020/08/28/govnewsomcaliforniasnewsimplified-color-coded-covid-reopeningguidelines/.
5

16
announced that its metrics for 3 consecutive weeks
had pushed it back to the purple, or widespread tier.6
Places of Worship are now closed for indoor services
once again, while 28 categories of non-essential
indoor activities are allowed to remain open. On
November 16, Governor Newsom exercised the
“emergency brake” he designed into the Blueprint—
the tool by which he can override the Blueprint and
take whatever action he desires. Using that
“emergency brake,” Governor Newsom pushed “94.1
percent of California’s population” into the Purple
Tier.7
Under the Blueprint, Governor Newsom clearly
envisions continuing his State of Emergency for an
indeterminate amount of time, all the while
subjecting California residents to a yo-yo experience
of yanking between tiers, based on backroom
statistical analyses and predictors that ignore the
reality of what Californians need to survive
economically and, even more importantly for those
who practice a religious faith, spiritually. For when
tragedy strikes, the religious rely on their faith more
José A. Álvarez, County Moves to Purple Tier; Restrictions to
Start Nov. 14, COUNTY OF SAN DIEGO COMMUNICATIONS OFFICE
(Nov. 10, 2020), https://www.countynewscenter.com/countymoves-to-purple-tier-restrictions-to-start-nov-14/.
6

Governor Newsom Announces New Immediate Actions to Curb
COVID-19 Transmission, OFFICE OF GOVERNOR GAVIN NEWSOM,
(Nov.
16,
2020),
https://www.gov.ca.gov/2020/11/16/
governornewsom-announces-new-immediate-actions-to-curbcovid-19-transmission/.
7

17
than ever, and to deny them this fundamental right
guaranteed under the U.S. Constitution is
governmental tyranny at its most egregious.
D. Plaintiffs Bishop Hodges and South Bay
Pentecostal Church.
Bishop Arthur Hodges III is Senior Pastor of
South Bay Pentecostal Church, a diverse Christian
community in Chula Vista, California. Before the
pandemic restrictions, the church held three to five
worship services every Sunday, for congregants to
“come together with one accord” to pray and worship.
The sanctuary of South Bay Pentecostal Church can
seat up to 600 people, but was usually only a third-,
or half-filled, with 200–300 congregants. 2ER305–13.
During the week following Monday, May 25, 2020,
California and San Diego lifted the first ban on all
worship services. As a result, the following Sunday,
May 31 (Pentecost Sunday), South Bay held worship
services with no more than 100 persons in attendance.
13ER2993–94. Every Sunday, the Church had to turn
numerous people away because it met the 100-person
cap for each of its services. This is despite the fact
that the sanctuary could safely (with social
distancing) accommodate well over 100 persons.
13ER2994. Each worship service required the
participation of at least 30 volunteers/staff to be held.
The Church could not feasibly hold more than three
worship services each Sunday. 13ER2994–95.
South Bay Pentecostal Church has a complex
theology, based on Sacred Scripture, relating to the

18
requirement that “all” of its congregants gather
together. California’s regulations continued to
burden those religious beliefs, by preventing “all”
from gathering. 13ER2990–91 (citing Hebrews 10:25;
Acts 1:8, 2:1, 2:42, 2:46–27.) These religious
requirements disfavor multiple worship services, by
preferring that the entire congregation meet at once.
For example, it would be akin to holding a family
reunion in three sessions, with one-third of the family
gathering at each session, but not being allowed to
meet the rest of the family gathering in the other
sessions. 13ER2996. South Bay’s theology also
encourages congregants to attend multiple worship
services—which many normally do. Nevertheless,
because the interplay of California’s regulations and
the nature of its worship services limited the Church
to serving a maximum of 300 people each Sunday (at
three worship services), it had to limit congregants’
ability to attend more than one service per Sunday.
13ER2996.
E. Public Protests
On June 12, 2020, after South Bay noted in
briefing that political protests and worship services
were treated the same under California’s
regulations—but in practice certain political protests
were entirely exempt from those regulations—
California modified them. Under the June 12
regulations, there are no restrictions on protest or
worship, so long as they occur outdoors, not indoors.
But this did not help South Bay. The Church, like
many other Places of Worship, does not have an
adequate place where it can meet outdoors. More

19
problematically, the Church’s theology requires
approaching the altar at the end of each service and
performing baptisms (both with social distancing).
The Church’s altar and baptistery is in its sanctuary
auditorium, which is indoors. 13ER2993.
F. Singing and Chanting Restrictions
On July 6, 2020, in addition to the above
restrictions, California published regulations stating
that “Places of Worship must therefore discontinue
indoor singing and chanting activities.” 13ER3121.
This restriction is particularly concerning because
singing is at the very heart of Pentecostal worship
services, and essentially acts as a ban on them.
13ER2993; 11ER2576–82.
G. Proceedings Below and Across the Country.
Almost as soon as various state governors began
issuing executive orders intended to curb the COVID19 pandemic, suits were filed alleging that the orders
infringed upon constitutional rights. See Planned
Parenthood Ctr. for Choice v. Abbott, No. A-20-CV323-LY, 2020 WL 1502102 (W.D. Tex. Mar. 30, 2020).
Then, beginning on April 6, courts began citing this
Court’s opinion in Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11 (1905), for the proposition
that the pandemic can justify infringements on those
constitutional rights. See S. Wind Women’s Ctr. LLC
v. Stitt, No. CIV-20-277-G, 2020 WL 1677094 (W.D.
Okla. Apr. 6, 2020). Almost as soon as the various
governors’ executive orders were issued, the lower
courts began splitting on whether the orders violated

20
constitutional rights, both under this Court’s Free
Exercise jurisprudence and under Jacobson.
On Friday, May 8, 2020, the day California
entered Stage 2 of the Resilience Roadmap, South
Bay filed suit in the Southern District of California.
South Bay contended that permitting various entities
to open in Stage 2, but relegating Places of Worship
to Stage 3, was an unconstitutional violation of their
right to the Free Exercise of religion. That same day,
South Bay filed an application for a temporary
restraining order. 3ER609–10; Dist. Ct. Dkt. Nos. 3,
12. On Friday, May 15, 2020, the District Court
denied South Bay’s application. App. E; App. F. That
same day, South Bay appealed to the Ninth Circuit,
and the next day filed an urgent motion for an
injunction pending appeal. 2ER43–47; 9th Cir. Dkt.
No. 2.
On Friday, May 22, 2020, the Ninth Circuit issued
its order on South Bay’s motion for an injunction
pending appeal. App. D. The panel, Judges
Silverman and Nguyen, issued a three-page order
holding that strict scrutiny was not required under
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) (“Lukumi”). Judge
Collins published an eighteen-page dissent in which
he concluded that Jacobson does not apply to Free
Exercise claims, California’s Resilience Roadmap
was not “neutral” or “of general applicability,” and
did not satisfy strict scrutiny.
On May 29, 2020, this Court denied South Bay’s
application for an emergency writ of injunction.

21
App. C. The denial was accompanied by a short
concurring opinion by Chief Justice Roberts and a
vigorous dissent by Justice Kavanaugh, joined by
Justice Thomas and Justice Gorsuch. Justice
Kavanaugh found that California did not have “a
compelling justification for distinguishing between
(i) religious worship services and (ii) the litany of
other secular businesses that are not subject to an
occupancy cap.” App. C. at 61a.
On July 29, 2020, the Ninth Circuit Court of
Appeals ordered limited remand of the interlocutory
appeal from the denial of South Bay’s motion for a
temporary restraining order “for the limited purpose
of permitting the district court to consider Plaintiffs’
request in light of the events and case law that have
developed since May 15, 2020.” App. B.
Before the district court, South Bay filed a
Verified Second Amended Complaint, 13ER2971–
3028, submitted all of the extra-record evidence cited
in its prior briefs before the Ninth Circuit and this
Court, 13ER3029–14ER3599; 11ER2576–12ER2837;
5ER640–675, 731–907, and supplemented the record
with declarations from esteemed experts, including
new declarations from George Delgado, M.D., of
COVID Planning Tools, 12ER2838–2852; 5ER715–
730; and declarations from Jayanta Bhattacharya,
M.D., Ph.D., a Stanford University medicine
professor and author of the Great Barrington
Declaration, 11ER2526–2540; 5ER664–671, 712–714;
Sean Kaufman, CPH, an infectious disease specialist
formerly of the CDC, 13ER2917–2924; James LyonsWeiler, Ph.D., a Bioinformatics research scientist,

22
13ER2925–2970; and Charles Cicchetti, Ph.D., a
former economics professor, 13ER2853–2916.
Nevertheless, on October 15, 2020, the District Court
denied South Bay’s Renewed Motion. App. A.
In light of the ongoing violations of South Bay’s
Free Exercise rights, the deepening of the circuit split
with the Second, Seventh and Ninth Circuits
splitting from the Fifth and Sixth Circuits, regarding
the proper constitutional standard that applies when
a state governor acts during a State of Emergency to
restrict Free Exercise rights, it is imperative that this
Court clearly state the correct rule of law to be
followed.
REASONS FOR GRANTING THE WRIT
This Court’s previous denial of South Bay’s
application for an emergency injunction on May 29,
2020 has been cited 115 times by numerous lower
courts throughout the Circuits – usually to support
the view that strict scrutiny does not apply to the
review of state-wide executive orders issued during
the COVID-19 pandemic, even if those orders restrict
the religious from exercising their Free Exercise
rights. This viewpoint is in direct conflict with a line
of established Free Exercise jurisprudence, most
notably expressed in this Court’s decisions in
Lukumi, Trinity Lutheran, and Espinoza and
faithfully followed by appellate judges in the Fifth
and Sixth Circuits. The denial by this Court of
another Ninth Circuit interlocutory appeal, Calvary
Chapel v. Sisolak, on July 24, 2020, was strongly
dissented by Justice Alito, Justice Gorsuch, and

23
Justice Kavanaugh—with Justice Thomas and
Justice Kavanaugh also joining Justice Alito’s
dissent. These conflicting non-majority opinions are
unfortunately wreaking havoc in the lower courts.
This Court should set the matter straight and should
do so by respecting its longstanding traditions
protecting religious rights.
1. The Conflicting Decisions of the Lower
Courts Create Troubling Precedent for
Free Exercise Challenges to Lockdown
Orders and Reopening Restrictions
1.1. The Ninth, Seventh, and Second
Circuits have Denied Injunctive Relief
for Governors’ Executive Orders that
Restrict the Right of Free Exercise
The appellate decisions in the Ninth, Seventh and
Second Circuits declined to subject lockdown orders
and reopening restrictions to strict scrutiny, creating
troubling precedent for lower courts. These courts
gave undue deference to the State by either
excessively limiting the types of situations where
religious discrimination could be found, or illogically
equating facial neutrality and general applicability
with a scheme of differential classifications of
permissible activities that designated churches for
disparate treatment. These lower courts concluded
that if certain secular activities were being treated
worse than churches, then discrimination could not
possibly be present.

24
In this case, the 2-1 split panel found that South
Bay had not shown it was likely to succeed on appeal.
The reasoning was quite brief in concluding that the
First Amendment was not violated since the state
restrictions were not being imposed because of
religious motivation nor did they impose burdens
only on religious conduct, citing Lukumi. Judge
Collins disagreed. In an 18-page dissent, he pointed
out that since the restrictions were not facially
neutral, strict scrutiny review was required.
Furthermore, Judge Collins found that the
restrictions also failed the general applicability test
and rejected the idea that Jacobson required a lower
standard of review. App. D.
In Harvest Rock Church, Inc. v. Newsom, 977 F.3d
728 (9th Cir. 2020), the Ninth Circuit again rejected
the argument that Governor Newsom’s lockdown
orders, and new framework of restrictions under the
“Blueprint for a Safer Economy” as applied to inperson worship services, violated Harvest Rock’s
First Amendment right to Free Exercise of religion.
Once again, the panel was split 2-1 in its denial,
concluding that there was no evidence that secular
activities were being treated more favorably than
religious activities. The panel indicated that even
though it was not bound by it, they were persuaded
by Chief Justice Roberts’ concurring opinion in this
case, App. C, that an injunction was not in the public
interest. Judge O’Scannlain issued a 15 page
vigorous dissent, citing Justice Alito’s dissenting
opinion in Calvary Chapel, in arguing that even
though “certain calculated, neutral restrictions . . .
necessary to combat emergent threats to public

25
health” may be imposed upon the religious, the
Constitution “does not allow a State to pursue such
measures
against
religious
practices
more
aggressively than it does against comparable secular
activities.” Harvest Rock, 977 F.3d at 731
In Elim Romanian Pentecostal Church v. Pritzker,
962 F.3d 341 (7th Cir. 2020), the Seventh Circuit,
following the reasoning of the Ninth Circuit, upheld
the denial of injunctive relief to churches that
claimed the Illinois Governor had violated their Free
Exercise rights by limiting the size of public
assemblies to 10 persons, including religious services.
Despite the churches’ inclusion on a list of “essential”
activities, they were not exempted from the tenperson cap. The Seventh Circuit found that there was
no discrimination against religious activities nor was
there any “hostility toward religion”. Instead, the
Seventh Circuit concluded that the Executive Order
“appears . . . to impose neutral and generally
applicable rules, as in Employment Division v. Smith,
494 U.S. 873 (1990).” Id. at 344.
In support of this finding of neutrality and general
applicability, the Seventh Circuit pointed out that
the 10 person cap applied not only to worship services
but also to the “most comparable types of secular
gatherings such as concerts, lectures. . . .” Id. In
considering the appellate analyses of the Sixth
Circuit, Ninth Circuit and this Court’s denial in
South Bay, the Seventh Circuit admitted that
worship services were not exactly like any of the
possible comparisons, but sided with Chief Justice
Roberts’ concurrence in finding that they should be

26
compared to “lectures, concerts, movie showings,
spectator sports and theatrical performances” rather
than “grocery stores, banks, and laundromats, in
which people neither congregate in large groups nor
remain in close proximity for extended periods.” Id.
at 346. Finally, the Seventh Circuit rejected the
church’s argument that a compelling interest was
required, stating it was compelled to implement the
approach under Smith, namely “that the Free
Exercise Clause does not require a state to
accommodate religious functions or exempt them
from generally applicable laws.” Id. at 345.
The Second Circuit continued to follow the line of
reasoning that if some secular activities are treated
worse than churches, no violations of Free Exercise
Rights have occurred. In Agudath Israel of Am. v.
Cuomo, ___ F.3d ___, 2020 WL 6559473 (2d Cir. 2020),
a coalition of Jewish synagogues and the Roman
Catholic Diocese of Brooklyn claimed that the 10person cap on religious services was a violation of
their constitutional rights. The Second Circuit, also
in a 2-1 split, found that the order was both neutral
and generally applicable, based on the “recent
precedent” in South Bay and Elim. Judge Park
dissented, arguing that strict scrutiny was clearly
warranted, since the “disparate treatment of
religious and secular institutions is plainly not
neutral,” and that the New York Governor failed to
overcome his burden since “there is little doubt that
the absolute capacity limits on houses of worship are
not ‘narrowly tailored.’” Id. at *5.

27
1.2. The Fifth and Sixth Circuits have
Granted Injunctive Relief for
Governors’ Executive Orders that
Restrict the Right of Free Exercise
In the complete opposite direction from the Ninth,
Seventh, and Second Circuits, appellate courts in the
Fifth and Sixth Circuits found that lockdown orders
imposing restrictions on church services did not
survive strict scrutiny because the orders clearly
discriminated against churches.
In Roberts v. Neace, 958 F.3d 409 (2020), the Sixth
Circuit correctly applied strict scrutiny in
determining whether the Kentucky Governor’s
executive orders violated the First Amendment and
the Kentucky Religious Freedom Restoration Act.
The petitioners argued that the restrictions
prohibiting “faith-based” mass gatherings violated
their constitutional rights. The Kentucky Governor
had issued lockdown orders in March 2020,
prohibiting all mass gatherings, including faithbased, but providing exceptions for secular activities.
A second order a few days later, on March 25,
required non “life-sustaining” organizations to close.
There were “19 broad categories of life-sustaining
organizations and over a hundred sub-categories
spanning four pages.”
The Sixth Circuit explained that “[f]aith-based
discrimination can come in many forms,” with laws
that “might appear to be generally applicable on the
surface but not be so in practice due to exceptions for
comparable secular activities.” Id. The Sixth Circuit

28
found that the four pages of exceptions, plus the
kinds of group activities allowed, was sufficient to
“remove them from the safe harbor for generally
applicable laws.” Id. The key point with regard to
evaluating neutrality was that “a law can reveal a
lack of neutrality by protecting secular activities
more than comparable religious ones.” Id. at 415.
With regard to the compelling interest analysis, the
Sixth Circuit did admit that the Governor had a
compelling interest in trying to prevent the spread of
the coronavirus but did not find that the orders were
the “least restrictive” means of doing so. “If the
Commonwealth trusts its people to innovate around
a crisis in their professional lives, surely it can trust
the same people to do the same things in the exercise
of their faith.” Id.
The Fifth Circuit, in First Pentecostal Church of
Holly Springs v. City of Holly Springs, Mississippi,
959 F.3d 669 (5th Cir. 2020), joined the Sixth Circuit
in granting injunctive relief from lockdown orders.
Circuit Judge Willett stated in his concurrence,
“Singling out house of worship—and only houses of
worship, it seems—cannot possibly be squared with
the First Amendment. . . . [W]hy can its members be
trusted to adhere to social-distancing in a secular
setting (a gym) but not in a sacred one (a church)?”
Id. at 671.

29
1.3. The Ninth, Seventh and Second
Circuits’ Approaches Misinterpret the
Neutrality and General Applicability
Test in Smith and Directly Conflict
with this Court’s Post-Smith Line of
Free Exercise Jurisprudence in
Lukumi, Trinity Lutheran and
Espinoza
This First Amendment protects not only one’s
interior beliefs from government restrictions but also
an individual’s outward expression of those beliefs in
the public arena, which most certainly includes the
freedom to attend services at a place of worship. See
Espinoza v. Montana Department of Revenue, 140 S.
Ct. 2246, 2275 (2020) (Gorsuch, J., concurring);
Cantwell, 310 U.S. at 303–04. Governor Newsom’s
executive orders and San Diego’s county-wide public
health directives under the Blueprint framework
interfere with South Bay’s First Amendment right to
practice its religious beliefs, which automatically
subjects such actions to heightened constitutional
review. The District Court, following the Ninth
Circuit, failed to apply strict scrutiny to the
Governor’s orders and therefore denied South Bay’s
renewed motion for injunctive relief because it
concluded that South Bay was unlikely to succeed on
the merits.
In Trinity Lutheran, 137 S. Ct. 2012 (2017), the
Court concluded that the Department that
supervised Missouri’s Scrap Tire Program violated
Trinity Lutheran’s Free Exercise rights when it
denied it a grant because of its religious status as a

30
church. Quoting Lukumi, this Court reiterated that
strict scrutiny applies when religious are targeted for
“special disabilities” because of their “religious
status”. Id. at 2021.
Most recently, in Espinoza v. Montana
Department of Revenue, 140 S. Ct. 2246 (2020), this
Court once again applied strict scrutiny to uphold the
Free Exercise claim of parents of students attending
a Christian school who were denied the ability to use
funds from Montana’s scholarship program to pay for
their children’s tuition solely because their school
was a religious institution. In analyzing the case, this
Court confirmed the “straightforward rule” that
“[w]hen otherwise eligible recipients are disqualified
from a public benefit “solely because of their religious
character,” strict scrutiny applies. Id. at 2260. This
Court also held that the state’s interest did not rise
to the standard of “an interest of the highest order”
when it did not apply the same objectives “with
respect to analogous nonreligious conduct.” Id. at
2261 (quoting Lukumi, 508 U.S. at 546).
As evidenced by this Court’s consistent
application of the strict scrutiny standard in Lukumi,
Trinity Lutheran and Espinoza, every lower court
reviewing a Free Exercise challenge must undertake
an analysis that probes beyond a cursory
examination of neutrality and general applicability
to determine whether discrimination has actually
occurred. Furthermore, the court must also establish
that the State has met its two-pronged burden of
showing both a compelling interest and that the
restrictions are narrowly tailored, in other words, the

31
least restrictive means to accomplish that compelling
interest.
2. Governor Newsom’s Restrictions on South
Bay’s Free Exercise Rights Clash with this
Court’s Precedents.
According to this Court’s Free Exercise
jurisprudence, the constitutional test to be applied is
straightforward. As a threshold inquiry, the court
examines whether Governor Newsom’s lockdown
orders and Blueprint scheme are neutral and
generally applicable. In other words, are churches
put in a disfavored category of restrictions? As Judge
Collins found in this case, App. D at 53a–70a, and
Judge O’Scannlain found in Harvest Rock, 977 F.3d
at 731–37, it is clear that the restrictions are not
facially neutral because they explicitly single out
religious activity as a category for disparate
treatment.
2.1. Governor Newsom’s Executive Orders
and Blueprint Restrictions fail the
Neutrality Test.
First, Governor Newsom singled out clergy, by
treating clergy differently from other essential
workforce in Sector 8. Seventeen out of eighteen
categories of workforce in Sector 8 were not subject to
working remotely because it was deemed impractical
for them to do so. Governor Newsom used an
impermissible value judgment to limit Clergy from
working (i.e., conducting worship services) “in person”
because in the State’s opinion it was “practical” for

32
clergy to work remotely. California’s singling out of
clergy and making a blanket determination that it is
“practical” for them to not lead church services in
person, is discriminatory and clear evidence of nonneutrality.
Second, Places of Worship are in their own
category for purposes of determining what
limitations apply in the four tiers of restrictions. It is
irrelevant that other secular activities are also
categorized. The point is that there is no neutrality,
because the prohibitions and limitations that are
applied to Places of Worship have been specifically
created by the State for Places of Worship, based on
the State’s own assessment of risk/reward for the
particular activities that are exclusively conducted
by Places of Worship. Once again, Governor
Newsom’s singling out of Places of Worship as a
separate activity to be regulated as he sees fit is clear
evidence of non-neutrality.
2.2. Governor Newsom’s Executive Orders
and Blueprint Restrictions fail the
General Applicability Test.
2.2.1. Secular Activities are Treated
More Favorably
Governor Newsom’s reopening restrictions under
the Blueprint scheme are not generally applicable
because a host of secular activities are still allowed to
be conducted indoors as long as they follow minimal
guidelines for mask wearing, sanitizing and social
distancing, while indoor church services are not

33
allowed to take place even if they follow the same
guidelines for mask wearing, sanitizing and social
distancing. Furthermore, the State justifies
restricting indoor worship services based on a
heightened risk rationale that is not applied equally
to similar activities. According to the Blueprint
website, the following nine criteria are used to assess
the riskiness of a particular human activity or a
business:
• Ability to accommodate face covering
wearing at all times (e.g. eating and drinking
would require removal of face covering)
• Ability to physically distance between
individuals from different households
• Ability to limit the number of people per
square foot
• Ability to limit duration of exposure
• Ability to limit amount of mixing of people
from differing households and communities
• Ability to limit amount of physical
interactions of visitors/patrons
• Ability to optimize ventilation (e.g. indoor vs
outdoor, air exchange and filtration)
• Ability to limit activities that are known to
cause increased spread (e.g. singing, shouting,
heavy breathing; loud environs will cause
people to raise voice)
8ER1740.
When applying these nine criteria to South Bay’s
church services, it is easy to conclude that church
services are equal or better in their ability to decrease

34
risk than a grocery store, restaurant or factory. South
Bay has the ability to require mask wearing during
worship services, establish seating 6-feet apart, limit
the number of attendees at each service, limit the
length of a service, and sanitize between services. By
comparison, at a grocery megastore such as Target or
Costco, which in the purple tier is permitted to
remain open while churches are closed: there are no
limits as to the number of people in the store at one
time; people can shop for unlimited amounts of time;
social distancing is difficult to enforce as people
continually pass each other within aisles, and the
store does not usually stop operations to empty its
store three times a day to sanitize. Unsurprisingly,
grocery stores are linked to COVID-19 outbreaks. 8
And yet the State finds worshipping in a church
service a more dangerous human activity for
spreading COVID-19.
2.2.2. Singing is Arbitrarily Given
Much Greater Weight as a Risk
Factor
The only possible criteria that the State can claim
as “higher risk” involves the activity of singing which
is an integral part of South Bay’s worship service.
“[S]inging is at the heart of Pentecostal worship
services,” and so a ban on singing “is essentially a ban
Terri-Ann Williams, RISK FACTOR Supermarket most likely
place for Brits to have visited before positive Covid test, Test &
Trace data shows, THE U.S. SUN (Nov. 20, 2020),
https://www.the-sun.com/news/1826530/supermarkets-mostcommon-place-catch-covid/.
8

35
on Pentecostal worship services.” 13ER2993; see also
11ER2576–82. Dr. James Watt, the State’s expert,
lists singing as part of five criteria to judge the
riskiness of a particular human activity/business: 1)
being indoors, 2) bringing together a large group of
people, 3) having close proximity between individuals,
4) gathering for an extended duration (unlimited),
and 5) having substantial singing and vocalizing that
generally takes place at events. 9ER1776.
However, upon closer examination, the results of
the study that Dr. Watt cites to support his claim of
singing being more dangerous also put forth a new
thesis that there are certain individuals who are
“superspreaders” for an unknown reason: “Our
results also clearly show that some participants
release many more particles than others, for as-yet
unclear reasons.” 9 Participants were asked to
vocalize at many different levels of loudness over
varying lengths of time, but the loudness did not
determine
whether
an
individual
was
a
“superspreader.” Dr. Watt also referenced two news
articles and a study describing outbreaks at church
events, all of which occurred early in March, in the
earliest stages of the pandemic, to support his
conclusions. South Bay’s expert, in contrast, cited
studies by various scientists explaining effective
measures that can be taken to eliminate the spread

The article also noted that “the relative contribution of each
expiratory activity in transmitting infectious microorganisms,
however, remains unclear.”
9

36
of COVID-19 through singing, 12ER2842–45, to
which the State has no response.
In view of the above, Governor Newsom’s
justification for assigning a “higher risk” designation
to indoor worship services appears, by attributing
significantly more weight to singing without
compensating for the decrease in risk by maskwearing, social distancing and hygiene protocols, to
be yet another impermissible value judgment
unrelated to health and safety.
Despite the obvious greater risks to health and
safety in outdoor protests, Governor Newsom has
actively promoted them. He ‘thank[ed]” the
protestors for violating his orders, 13ER3003,
15ER3441, instructed them to “[k]eep doing it”
13ER3003, 15ER3444, “express[ed his] deep
gratitude to them, 13ER3003, 15ER3454, and told
them they had a “right” to free speech. 12ER2829.
Later, he even tweeted his support. 12ER2832–33.
The Governor is willing to grant first class status to
the First Amendment right of protest, but assigns
second class status to the First Amendment right of
freedom of expression.
2.3. Governor Newsom’s Executive Orders
and Blueprint Restrictions are not
Narrowly Tailored to Serve a
Compelling State Interest.
Everyone recognizes that the State does have a
clear interest in protecting the health and safety of
its residents, especially in the management of

37
infectious diseases. But Governor Newsom cannot
claim compelling interest when there is no valid
justification for treating indoor worship services
differently from other secular activities that are
allowed to continue indoors. Furthermore, “[a]s more
medical and scientific evidence becomes available,
and as States have time to craft policies in light of
that evidence, courts should expect policies that more
carefully account for constitutional rights.” Calvary
Chapel, 140 S. Ct. at 2605 (Alito, J., dissenting). It
has been eight months since Governor Newsom first
issued his lockdown orders. South Bay has complied
with all the necessary guidelines to conduct its
worship services safely and there is no evidence that
attending a worship service at South Bay or any
other Place of Worship is riskier than shopping at
Costco, eating at a restaurant, working in a factory
or filming a television show. To the contrary, Places
of Worship often have a greater ability to reduce risk
of transmission through their protocols. And none of
these secular activities have the guarantee of the
Constitution for protection.
2.3.1. The Orders Fail Even Generic
Equal Protection.
Even if a mere Jacobson “equal protection”
analysis is engaged in, cf. App. C at 43a–45a,
(Roberts, C.J., concurring), churches are treated far
from equally. For example, San Diego elementary
and high schools were permitted to open back up
again at full-service capacity when the County was in
the “red” tier, where adults and children are inside of
buildings for prolonged periods of time, with only a

38
social distancing requirement—no capacity limit—
and are being allowed to stay open despite the
County’s return to the “purple” tier. 5ER809–828.10
For colleges, in the “red” tier a per-room capacity
limit of 25% or 100 individuals has been implemented,
but a per-room limit means that larger buildings can
house hundreds, if not thousands of students.
5ER830–863. Remarkably, in the “purple” tier
California even permits counties to offer certain
college courses indoors, including lab and art classes.
5ER839.
College athletic programs are also given special
treatment. In the red-tier, college athletic facilities
are allowed to have players, coaches, and trainers
indoors for extended periods of time with no express
limit on the amount of occupants inside such facilities.
In particular, California’s restrictions merely state
that the “athletic facilities must limit occupancy to
essential personnel,” but do not put an actual limit on
the number of total people that can occupy that
facility. 5ER839, 853–863. Like California’s notable
exemption of Hollywood from the coronavirus
lockdown from the very beginning, 13ER2980, 3055,
this exemption may make economic sense, but not
constitutional sense.

J.R. Stone, Move into purple tier will stop school districts
looking to offer in-person learning, ABC7 (Nov. 16, 2020),
https://abc7news.com/coronavirus-california-purple-tierschools-in-person-learning/8030550/.
10

39
Transit, manufacturing, and warehousing are
also entitled to preferential treatment, with
California’s guidelines providing no capacity limit in
the “purple” tier. 13ER3001; 3ER328, 560–584;
5ER865–876. Although airlines are regulated by the
FAA, California could impose a quarantine on people
who have recently flown (like Hawaii), but instead
California is content to respect the constitutional
right to travel. See 5ER878–883 (Los Angeles Times
article noting how airlines have only self-imposed
restrictions). Finally, even if San Diego County
moves back into the “red” tier, bookstores, clothing
and shoe stores, hair salons and barbershops, home
and furniture stores, jewelry stores, libraries,
shopping malls, retailers, and nail salons will be
allowed to be opened at 50% capacity; museums are
allowed to open at 25% capacity; and movie theaters
are allowed to open at 25%/100 person per screen—
while churches are limited to 25%/100 person total.
5ER885–907. As Justice Gorsuch said, “[t]his is a
simple case.” Calvary Chapel, 140 S. Ct. at 2609
(Gorsuch, J., dissenting).
2.3.2. The Orders Fail Regular Free
Exercise Analysis
But, of course, the Free Exercise clause is not
redundant of the Equal Protection clause. If it ever
was the right question, the question which First
Amendment jurisprudence demands now is not
merely the Jacobson question of whether “[s]imilar or
more severe restrictions apply to comparable secular
gatherings.” App. C. at 44a (Roberts, C.J.,
concurring).

40
Rather, the question is whether there is a
compelling government interest in preventing South
Bay Pentecostal Church from holding worship
services (with singing) in its sanctuary, when the
Church practices social distancing, requires masks,
checks temperature, regularly disinfects its
sanctuary, requires people showing symptoms to stay
home, and so far has a perfect record—no coronavirus
infections. 13ER2995, 3020–3021; 5ER732. See
Gonzales v. O Centro Espirita Beneficente Uniao do
Vegetal, 546 U.S. 418, 430–31 (2006).
California has never even attempted to answer
this tailored question, instead simply stating that
worship services have led to some outbreaks. But
none of California’s anecdotal hearsay relates to
South Bay Pentecostal Church. California’s habit of
string-citing articles and cases is only impressive
from a distance. 7ER1468–8ER1643; 8ER1911–1927;
see also 5ER778–779, 787, 791–792 (California
Superior Court Judge Chalfant reviewing same news
articles and concluding that they are “not evidence,”
“not good enough,” and “you can’t just make stuff up”
to justify restricting religious rights). There have
been a grand total of 650 confirmed COVID-19 cases
tied to worship services, with at least one million
worship services being performed during the
pandemic by the Catholic Church alone. 5ER716–
717. Further, when California’s anecdotal cases are
examined closely, the newspaper hearsay reveals
that almost all of the outbreaks occurred in May or
earlier—six months ago—and were primarily caused
by a failure to adhere to commonsense safety
precautions such as individuals not staying home

41
despite having symptoms, people not washing hands,
and people sharing food. 5ER718–725. Nothing in
them indicates that South Bay Pentecostal Church
cannot worship safely. 5ER726.
Nor is the Blueprint narrowly tailored and the
least restrictive means for stopping COVID-19, given
the existence of the same exemptions described above.
Those exemptions show that California can
accomplish its interests in stopping COVID-19
without completely shutting down places of worship
or limiting their capacity to the lesser of 25% or 100
people. Other mitigation strategies (such as social
distancing when practicable and proper hygiene
practices) are apparently sufficient to stop COVID in
essential workplaces and in numerous other
comparable settings, and all are less restrictive than
a total ban or draconian restriction on congregate
worship. The Blueprint thus “burden[s] substantially
more [religious exercise] than is necessary to further
the government’s interests” and so is ipso facto not
narrowly tailored. McCullen v. Coakley, 573 U.S. 464,
486 (2014). Here, the inarguable purpose of the
restrictions on “places of worship” is to stop COVID19, and yet the Blueprint subjects comparable
activities, for the purposes of the government’s
interests, to far fewer burdens. It thus easily fails
strict scrutiny.

42
3. The Other Preliminary Injunction Factors
Favor South Bay
3.1. South Bay Will Suffer Irreparable
Harm Without Injunctive Relief.
It is well-settled that “[t]he loss of First
Amendment freedoms, for even minimal periods of
time, unquestionably constitutes irreparable injury.”
Elrod v. Burns, 427 U.S. 347, 373 (1976). Without an
injunction preventing Governor Newsom from
further enforcing its worship restrictions, South Bay
will suffer irreparable harm to its fundamental
constitutional rights.
3.2. The Balance of Equities Tips Sharply
in South Bay’s Favor.
The balance of hardships also tips overwhelming
in South Bay’s favor because the threatened injury to
them is weighty—the loss of constitutional rights and
the inability to practice their faith. Coll. Republicans
at San Francisco State Univ. v. Reed, 523 F. Supp. 2d
1005, 1012 (N.D. Cal. 2007). By contrast, the cost of
an injunction to the Government is negligible.
“[T]here can be no harm to [the government] when it
is prevented from enforcing an unconstitutional
statute.” Joelner v. Vill. of Washington Park, 378
F.3d 613, 620 (7th Cir. 2004).

43
3.3. The Relief Sought is in the Public
Interest.
As a threshold matter, the government simply
“does not have an interest in the enforcement of an
unconstitutional law.” N.Y. Progress & Prot. PAC v.
Walsh, 733 F.3d 483, 488 (2d Cir. 2010) (quotation
marks omitted). Although public health interests are
undoubtedly important, targeting Places of Worship
for disparate treatment will not advance that interest
in any way. South Bay’s safety measures have
prevented any COVID-19 outbreaks stemming from
its worship services. No public health interest is
served by prohibiting indoor church services where
masks, social distancing, and other hygiene
measures are in place, especially when a huge
superstore like Target or Costco can have hundreds
of people shopping indoors. “The question is not
whether the State may take generally applicable
public-health measures, but whether it may impose
greater restrictions only on houses of worship. It may
not.” Agudath Israel of Am. v. Cuomo, ___ F.3d ___,
2020 WL 6559473, at *6 (2d Cir. 2020) (Park,
dissenting).
CONCLUSION
For the reasons stated, South Bay respectfully
requests that this Court grant its petition for a writ
of certiorari before judgment, and set a clear
precedent for the various Circuit and District Courts
to follow.

44

Respectfully submitted,
CHARLES S. LiMANDRI
Counsel of Record
PAUL M. JONNA
JEFFREY M. TRISSELL
LIMANDRI & JONNA LLP
Post Office Box 9120
Rancho Santa Fe,
CA 92067
(858) 759-9930

THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. WASHINGTON ST.,
STE. 1250
CHICAGO, IL 60606
(312) 782-1680

HARMEET K. DHILLON
MARK P. MEUSER
Counsel for Petitioners
DHILLON LAW GROUP INC.
South Bay United
177 POST ST., STE. 700
Pentecostal Church and SAN FRANCISCO,
Bishop Arthur Hodges
CA 94108
III
(415) 433-1700

APPENDIX

1a
APPENDIX A
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
SOUTH BAY UNITED
PENTECOSTAL
CHURCH, et al.,
Plaintiffs,
v.
GAVIN NEWSOM, in his
ofﬁcial capacity as the
Governor of California,
et al.,
Defendants.
I.

Case No.
20-cv-00865-BAS-AHG
ORDER DENYING
PLAINTIFFS’ RENEWED MOTION
FOR A TEMPORARY
RESTRAINING
ORDER OR PRELIMINARY INJUNCTION
(ECF No. 53)
(Filed Oct. 15, 2020)

INTRODUCTION

This case arises from the State of California’s efforts to limit the spread of the novel severe acute respiratory syndrome-related coronavirus (SARS-CoV-2)
that has upended society. The illness caused by the virus, coronavirus disease 2019 (COVID-19), has killed
more than ten thousand people in California and sickened many more. There is no known cure, widely available effective treatment, or approved vaccine for the
disease. And because people infected with the virus
may be asymptomatic, they may unintentionally infect
others around them. Therefore, physical distancing
that limits physical contact is essential to slow the
spread of the virus.

2a
To ensure physical distancing, the Governor of
California has issued a series of restrictions on public
gatherings. This case centers on the restrictions for inperson, indoor religious worship services. Plaintiffs
South Bay United Pentecostal Church and Bishop Arthur Hodges III allege these restrictions violate their
constitutional rights by limiting their ability to freely
exercise their religion.
An earlier version of California’s restrictions prohibited Plaintiffs from holding any in-person worship
services. In May 2020, Plaintiffs asked the Court to enjoin those restrictions while this case proceeded. After
the Court denied Plaintiffs’ request for extraordinary
relief, they appealed to the Court of Appeals for the
Ninth Circuit and concurrently requested an emergency injunction, which was denied. Plaintiffs next
asked the Supreme Court for emergency relief, but it,
too, denied their request. Plaintiffs later requested
that their appeal be sent back to this Court to allow
the Court to reconsider whether California’s restrictions should be enjoined in light of new developments. The Ninth Circuit granted their request.
Now before the Court is Plaintiffs’ renewed motion
for a temporary restraining order or preliminary injunction. In San Diego County, California’s restrictions
currently limit Plaintiffs’ indoor worship services to
25% of building capacity or 100 people, whichever is
fewer. The restrictions also forbid group singing and
chanting indoors. Thus, the challenged restrictions are
more nuanced and lenient than the rules the Court
previously considered in May. Plaintiffs now argue,

3a
however, that California’s “scientiﬁc pronouncements”
are “largely baseless,” and that by “all reasonable scientiﬁc measurements,” the COVID-19 health emergency “has ended.” (ECF No. 61 at 1:12-15.) They also
argue the State’s restrictions treat certain secular
businesses more favorably than religious organizations and have been enforced in a discriminatory manner. Consequently, Plaintiffs argue the restrictions
regarding indoor worship services and singing are unconstitutional and should be enjoined before trial.
California paints a different picture of the current
circumstances. It stresses the crisis is ongoing and
ﬁlled with uncertainty. California highlights that
COVID-19 infections and deaths surged after the
Court considered Plaintiffs’ ﬁrst request to enjoin the
State’s rules. And although Plaintiffs’ renewed motion
cites that “[a]s of July 14, 2020, California ha[s] only
reported a total of 7,227 deaths from COVID-19,” the
State points out that this count had swelled to 12,407
as of August 31, 2020. (State’s Opp’n 9:18-21, ECF
No. 57; see also Renewed Mot. 1:24–25, ECF No. 53-1.)
California argues “these numbers are enormous, far
greater than the number of people killed in the 9/11
terrorist attacks and those who lost their lives in Hurricane Katrina.” (State’s Opp’n 9:21–23.) The State
also claims Plaintiffs “ignore the reason for why the
State has been able to slow the spread of the disease:
the imposition of the very types of public health restrictions that Plaintiffs ask the Court to enjoin.” (Id.
10:14–17.) “Enjoining restrictions because they have
proven effective in curbing COVID-19 would be ‘like

4a
throwing away your umbrella in a rainstorm because
you are not getting wet,’ ” the State argues. (Id. 10:26–
28 (citing Shelby Cty. v. Holder, 570 U.S. 529, 590
(2013) (Ginsburg, J., dissenting)).) Therefore, both California and the County of San Diego urge the Court to
again refuse Plaintiffs’ request for extraordinary relief.
Ultimately, the Court concludes Plaintiffs have not
met their burden to demonstrate they are entitled to
a preliminary injunction—“an extraordinary remedy
never awarded as of right.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 24 (2008). Therefore, for the
following reasons, the Court DENIES Plaintiffs’ renewed motion for a temporary restraining order or preliminary injunction.
II.

BACKGROUND
A. SARS-CoV-2

Transmission. Although much remains uncertain
about the novel coronavirus, “there is consensus
among epidemiologists that the most common mode of
transmission of SARS-CoV-2 is from person to person,
through respiratory droplets such as those that are
produced when an infected person coughs or sneezes,
or projects his or her voice through speaking, singing
and other vocalization.” (Dr. Watt Decl. ¶ 27, ECF No.

5a
57-21 accord Dr. Rutherford Decl. ¶ 28, ECF No. 57-3.2
The virus can also “live on certain surfaces for a period
1

Dr. James Watt is the Chief of the Division of Communicable Disease Control of the Center for Infectious Diseases at the
California Department of Public Health (“CDPH”). (Dr. Watt
Decl. ¶ 2.) He received his doctor of medicine from the University
of California, San Diego in 1993 and a master’s degree in public
health from the University of California, Berkeley in 1995. (Id.
¶ 3.) Dr. Watt previously worked for the Centers for Disease Control and Prevention (“CDC”) as an Epidemic Intelligence Service
Ofﬁcer in the Respiratory Diseases Branch. (Id. ¶ 4.) He is also
an Associate at the Johns Hopkins Bloomberg School of Public
Health and a Clinical Professor at the University of California,
San Francisco School of Medicine, where he teaches graduate students in public health and medical students about communicable
disease control. (Id. ¶ 5.) His professional commendations include
the U.S. Public Health Service Achievement medal in 2000, the
National Center for Infectious Diseases Honor Award in 2001,
and Outstanding Achievement Awards from the CDPH in 2015
and 2016. (Id. ¶ 8.) Dr. Watt has been “very involved” in the
CDPH’s response to the COVID-19 pandemic, “working full time
for approximately 60–70 hours per week to address the pandemic”
from January 2020 to the date of his declaration. (Id. ¶ 15.) The
Court addresses Plaintiffs’ objections to Dr. Watt’s declaration
and other evidence below. See infra note 7.
2
Dr. George Rutherford is the Salvatore Pablo Lucia Professor of Epidemiology, Preventive Medicine, Pediatrics, and History
at the University of California, San Francisco School of Medicine.
(Dr. Rutherford Decl. ¶ 4.) He also leads the Division of Infectious
Disease and Global Epidemiology in the Department of Epidemiology and Biostatistics. (Id.) Further, Dr. Rutherford is an adjunct
professor at the University of California, Berkeley School of Public Health. (Id.) He also serves as the “Director of Global Strategic
Information Group in the Institute for Global Health Sciences at
U.C. San Francisco.” (Id.) Dr. Rutherford received his doctor of
medicine from the Duke University School of Medicine in 1978.
(Id. ¶ 2.) He also received training in epidemiology in the CDC’s
Epidemic Intelligence Service and spent ten years in various public health positions before entering academia. (Id. ¶ 3.) Since the

6a
of time, suggesting that fomite transmission (through
touching a surface where the live virus is present) is
possible,” but this method of transmission “is not believed to be a common method by which individuals
can be infected by the virus.” (Dr. Watt Decl. ¶ 29; see
also Dr. Rutherford Decl. ¶ 30.) There is also “broad
consensus that people who are not experiencing symptoms can still spread SARS-CoV-2.” (Watt Decl. ¶ 30;
see also id. ¶ 31; Dr. Rutherford Decl. ¶¶ 20–32.)
“Therefore, individuals who themselves may have been
unknowingly infected by others can themselves become unknowing transmitters of the virus.” (Dr. Watt
Decl. ¶ 32; accord Dr. Rutherford Decl. ¶ 27.)
Gatherings. Group gatherings increase the risk of
transmission of the virus. (Dr. Watt Decl. ¶¶ 37–43; see
also Dr. Rutherford Decl. ¶¶ 47–52.) “The more people
that gather, the higher the likelihood that an infected
person will be present. Also, the larger the gathering,
the higher the number of people who may be secondarily infected by that infected person.” (Dr. Watt Decl.
¶ 42; see also Dr. Rutherford Decl. ¶ 47.) “Evidence
indicates the risk of transmission at a gathering increases when individuals are in close proximity to one
another for an extended period.” (Dr. Watt Decl. ¶ 43.)
The transmission risk also “increases with both the
novel coronavirus emerged, Dr. Rutherford has “devoted substantial time to researching and studying the virus” as part of his
epidemiology roles and has “spoken extensively on topics related
to the novel coronavirus and the disease it causes during 2020,”
including through presentations to the California Medical Association and the California Health and Human Services Agency. (Id.
¶ 14.)

7a
length of time the gathering lasts and the proximity of
people to each other at the gathering.” (Id.)
Indoor Gatherings and Singing. Although gatherings increase the risk of transmission of the virus, this
risk “is much higher when the gathering takes place
indoors rather than outdoors.” (Dr. Watt Decl. ¶ 43;
Dr. Rutherford Decl. ¶ 50 (“There is a lower risk of
COVID-19 transmission when a group gathering takes
place outdoors; there is a much decreased likelihood of
aerosolized transmission of the virus outdoors because
aerosolized particles will dissipate into the atmosphere.”).) There is also “scientiﬁc consensus that vocalization, even normal speech, produces aerosols, and
that louder and more forceful expression such as singing and chanting produces more aerosols.” (Dr. Watt
Decl. ¶ 45.) “Most scientists believe that group singing,
particularly when engaged in while in close proximity
to others in an enclosed space, carries a high risk of
spreading the COVID-19 virus through the emission of
infected droplets (which typically travel <6 feet) and
aerosols.” (Id.; see also Dr. Rutherford Decl. ¶ 54 (explaining that engaging in “singing, chanting, shouting,
and speaking loudly . . . in an indoor or enclosed space”
increases the risk of transmission).)
Given the foregoing, religious “services and similar cultural events, particularly those taking place in
an enclosed space, involve a heightened level of risk of
COVID-19 transmission.” (Dr. Watt Decl. ¶ 72; accord
Dr. Rutherford Decl. ¶ 57.) “The characteristics of such
events that cause the increased risk of transmission
include: being indoors, bringing together a large group

8a
of people, having close proximity between individuals,
gathering for an extended duration, and having substantial singing and vocalizing that generally takes
place at the events.” (Dr. Watt Decl. ¶ 72; see also
Dr. Rutherford Decl. ¶ 57 (“Based on my knowledge,
experience and study of the relevant publications, attending indoor worship services (and similar cultural
events, which are included in this discussion) presents
an exceptionally high risk of COVID-19 transmission
because they involve a combination of many high risk
factors”).)
COVID-19. “The virus can cause severe disease
and death in individuals of any age. Older adults and
people of any age who have serious underlying medical
conditions are at higher risk for severe illness or
death from COVID-19.” (Dr. Watt Decl. ¶ 22; see also
Dr. Rutherford Decl. ¶¶ 40, 51.) “The symptoms of the
disease are predominantly respiratory but many of
those infected also experience non-respiratory symptoms.” (Dr. Rutherford Decl. ¶ 20; see also Dr. Watt
Decl. ¶ 21.) “The disease typically starts as a fever
and cough that progresses to respiratory distress and
pneumonia in some individuals. In its most severe
form it causes respiratory and/or myocardial failure.”
(Dr. Rutherford Decl. ¶ 21.) “Currently there is no vaccine available in the United States and no generally
effective treatment for COVID-19.” (Id. ¶ 36; see also
id. ¶ 37 (noting that “[w]e have learned a lot about
treatment of the novel coronavirus since the beginning
of the pandemic and treatments have improved,” but
“they are far from curative”); Dr. Watt Decl. ¶ 24.)

9a
B. South Bay Pentecostal Church
Plaintiff South Bay Pentecostal Church “is a
multi-national, multi-cultural congregation” located in
Chula Vista in San Diego County, California. (Bishop
Hodges Decl. ¶ 3, ECF No. 12-2.) Its congregation “represents a cross-section of society, from rich to poor and
encompassing people of all ages.” (Id. ¶ 17.) Plaintiff
Bishop Art Hodges III has served as the senior pastor
of the Church for thirty-ﬁve years. (Id. ¶ 2.)
Typically, the Church holds “between three and
ﬁve services each Sunday.” (Bishop Hodges Decl. ¶ 12,
ECF No. 12-2.) “The average attendance at some of
these services lies between two-hundred (200) and
three-hundred (300) congregants.” (Id.) The Church’s
“sanctuary can hold up to six-hundred (600) people.”
(Id.) The Church “also perform[s] baptisms, funerals,
weddings, and other religious ceremonies.” (Id. ¶ 15.)
Bishop Hodges explains that “singing is at the
heart of our worship services, and comprises 25–50%
of our typical Pentecostal worship gathering experience at Church.” (Bishop Hodges Decl. ¶ 3, ECF No. 532.) “In a Pentecostal Church worship service, everyone
is instructed and expected to sing praise to God, just
as everyone is instructed and expected to pray to God.
In our worship services, praying, singing, and praising
God is not for spectators, it is for participants.” (Id.
¶ 10.) A service at the Church also “concludes with
fellowship both inside and outside the sanctuary.”
(Bishop Hodges Decl. ¶ 14, ECF No. 12-2.) Bishop
Hodges further explains: “ ‘Zoom Meetings’ and other

10a
tele-conferencing applications are inadequate substitutes [for in-person services] as they curtail a minister’s ability to lay hands upon a congregant or perform
a baptism. They also curtail our congregation’s ability
to approach the altar, which is central to our experience of faith.” (Id. ¶ 20.)
C. Stay-at-Home Order and First Motion
for Injunctive Relief
Executive Order N-33-20. On March 4, 2020, the
Governor of California proclaimed a State of Emergency in California because of the threat of COVID-19.
(Second Am. Compl. (“SAC”) ¶ 18, ECF No. 47; see also
SAC Ex. 1-1, ECF No. 47-1.) On March 19, 2020, the
Governor issued Executive Order N-33-20, which
states that to protect the public’s health, “all individuals living in the State of California” are “to stay at
home or at their place of residence except as needed to
maintain continuity of operations of the federal critical
infrastructure sectors.” (SAC Ex. 1-1.)3 California’s
Public Health Ofﬁcer designated a list of “Essential
Critical Infrastructure Workers.” (SAC Ex. 1-2.) Included in that list were “[f ]aith based services that are
provided through streaming or other technology.” (Id.
at 16.) Meaning, Plaintiffs could conduct services over
3

The Court considers the public records and government
documents attached to the Second Amended Complaint because
their authenticity is not questioned. The Court similarly grants
the State’s and Plaintiffs’ requests for judicial notice as to the contents of public records and government documents. (ECF Nos. 577, 69.) See, e.g., Cachil Dehe Band of Wintun Indians of the Colusa
Indian Cmty. v. California, 547 F.3d 962, 969 n.4 (9th Cir. 2008).

11a
online streaming video or teleconferencing, but not in
person at the Church’s sanctuary. (See id.)
The State later released a “Resilience Roadmap”
that categorized workplaces into four stages. (SAC Ex.
1-3.) The roadmap placed “religious services” in Stage
3, along with movie theaters, museums, and bars—instead of Stage 2, which included retail stores and dinein restaurants. (Id.) The County of San Diego adopted
the State’s restrictions, list of essential workers, and
roadmap through a series of public health orders and
emergency regulations. (See SAC Exs. 2-2, 2-3, 2-4.)
On May 8, 2020, Plaintiffs ﬁled this action against
various State and County ofﬁcials.4 (ECF No. 1.) On
4

After changes to the pleadings and personnel, the Defendants are:
Name
Gavin Newsom
Xavier Becerra
Sandra Shewry*
Wilma J. Wooten
Helen Robbins-Meyer
William D. Gore

Title
Governor of California
Attorney General of California
Acting Director of the CDPH
Public Health Ofﬁcer, County of
San Diego
Director of Emergency Services,
County of San Diego
Sheriff of the County of San Diego

Plaintiffs sue all these Defendants in their ofﬁcial capacities.
(SAC ¶¶ 10–15.) For simplicity, the Court collectively refers to the
State of California ofﬁcials as either “California” or the “State.”
The Court also collectively refers to the County of San Diego ofﬁcials as the “County” or “San Diego County.” But see U.S. Const.
amend XI; 42 U.S.C. § 1983; Monell v. Department of Social Services of the City of New York, 436 U.S. 658 (1978).
* The Court substitutes Sandra Shewry, the Acting Director
of the CDPH, in place of Sonia Angell, the former ofﬁcial, who
resigned. (See ECF No. 67 at n.1.) See Fed. R. Civ. P. 25(d).

12a
May 11, 2020, Plaintiffs ﬁled a First Amended Complaint raising claims under the First Amendment’s
Free Exercise, Establishment, Free Speech, and Assembly Clauses; the Fourteenth Amendment’s Due
Process and Equal Protection Clauses; and rights
enumerated in Article 1, sections 1 through 4, of the
California Constitution. (ECF No. 11.) Plaintiffs then
moved for a temporary restraining order and an order
to show cause regarding a preliminary injunction.
(ECF No. 12.) Plaintiffs sought an injunction that
would prevent the State and County “from enforcing
. . . any prohibition on Plaintiffs’ engagement in religious services, practices, or activities at which the
County of San Diego’s Social Distancing and Sanitation Protocol and Safe Reopening Plan is being followed.” (ECF No. 12-1 at 25:10–14.)
Prior Ruling. On May 15, 2020, the Court denied
Plaintiffs’ motion during a telephonic hearing. (ECF
No. 32.) The Court concluded Plaintiffs are unlikely to
prevail on the merits of their claims for several reasons. First, applying Jacobson v. Massachusetts, 197
U.S. 11 (1905), the Court found that the State “may
limit an individual’s right to freely exercise his religious beliefs when faced with a serious health crises”
like that presented by COVID-19. (Mot. Hr’g Tr. 25:19–
25, ECF No. 38.) The Court reasoned: “The right to
practice religion freely does not include the liberty to
expose the community to communicable disease or to
ill health or death.” (Id. 26:1–3.)
Second, citing Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah, 508 U.S. 520 (1993), the Court

13a
reasoned that the then-operative restrictions did not
place a burden on in-person worship services “because
of a religious motivation, but because of the manner in
which the service is held, which happens to pose a
greater risk of exposure to the virus.” (Mot. Hr’g Tr.
26:9–25.) The Court highlighted that “the services involve people sitting together in a closed environment
for long periods of time.” (Id. 26:19–20.) The Court further determined that Plaintiffs had “not demonstrated
arbitrary exceptions to [the] classiﬁcation” level that
included in-person worship services. (Id. 27:5–6.) The
Court also found the reopening restrictions were “rationally based on protecting safety and stopping” the
spread of the virus. (Id. 27:10–11.)
Third, the Court reasoned that, even if the equivalent of strict scrutiny applied to Plaintiffs’ state constitutional free exercise claim, the restrictions were
narrowly tailored to further a compelling governmental interest—the State’s interest in protecting public
health. (Mot. Hr’g Tr. 27:12–28:17.) Finally, the Court
determined Plaintiffs were unlikely to succeed on their
federal equal protection and due process claims. (Id.
29:18–30:2.) And after further ﬁnding that neither the
balance of equities nor the public interest supported
issuing a temporary restraining order, the Court denied Plaintiffs’ motion. (Id. 30:3–19.)
D. Appeal and Changing Landscape
Ninth Circuit. Plaintiffs appealed to the Ninth
Circuit and ﬁled an emergency motion for an

14a
injunction that would allow them to hold in-person religious services pending appeal. (ECF Nos. 35, 41–42.)
On May 22, 2020, the Ninth Circuit denied Plaintiffs’
request. S. Bay United Pentecostal Church v. Newsom,
959 F.3d 938 (9th Cir. 2020). The Ninth Circuit concluded Plaintiffs had “not demonstrated a sufﬁcient
likelihood of success on appeal.” Id. at 939. It explained:
Where state action does not “infringe upon or
restrict practices because of their religious
motivation” and does not “in a selective manner impose burdens only on conduct motivated by religious belief,” it does not violate
the First Amendment. See Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520, 533, 543, (1993). We’re dealing
here with a highly contagious and often fatal
disease for which there presently is no known
cure. In the words of Justice Robert Jackson,
if a “[c]ourt does not temper its doctrinaire
logic with a little practical wisdom, it will
convert the constitutional Bill of Rights into
a suicide pact.” Terminiello v. City of Chicago,
337 U.S. 1, 37 (1949) (Jackson, J., dissenting).
Id. at 939. The Ninth Circuit also determined the remaining injunction factors “do not counsel in favor of
injunctive relief.” Id. at 940. Judge Collins dissented.
Id. at 940–47. He reasoned the State’s then-operative
reopening plan is not facially neutral or generally applicable, is subject to strict scrutiny, and does not
pass muster under this standard. Id. at 943–46. On
the last point, Judge Collins reasoned California’s

15a
“undeniably compelling interest in public health” could
be achieved through narrower restrictions that regulated the “speciﬁc underlying risk-creating behaviors,
rather than banning the particular religious setting
within which they occur.” Id. at 946–47.
On May 25, 2020, California issued guidelines that
allow places of worship to resume in-person services
with limitations. (SAC Ex. 1-5.) The guidelines contain
instructions and recommendations for physical distancing during worship services as well as cleaning
and disinfection protocols, training for employees and
volunteers, and individual screening. (Id.) Further,
while citing the increased risk of transmission of the
virus in an indoor setting, the guidelines limit attendance for in-person worship services “to 25% of building
capacity or a maximum of 100 attendees, whichever is
fewer.” (Id. at 3.)
Supreme Court. When California relaxed its restrictions, Plaintiffs were seeking emergency relief
from the Supreme Court. (Grabarsky Decl. Ex. 6, ECF
No. 57-1.) They ﬁled a supplemental brief to challenge
the State’s May 25 guidelines. (Id. Ex. 7.) After Justice
Kagan referred Plaintiffs’ application for injunctive
relief to the Supreme Court, the Court denied it. S. Bay
United Pentecostal Church v. Newsom, 140 S. Ct. 1613
(2020). Chief Justice Roberts wrote an opinion concurring in the denial of the application. Id. at 1613–14.
He reasoned:

16a
Although California’s guidelines place restrictions on places of worship, those restrictions appear consistent with the Free
Exercise Clause of the First Amendment.
Similar or more severe restrictions apply to
comparable secular gatherings, including lectures, concerts, movie showings, spectator
sports, and theatrical performances, where
large groups of people gather in close proximity for extended periods of time. And the Order exempts or treats more leniently only
dissimilar activities, such as operating grocery stores, banks, and laundromats, in which
people neither congregate in large groups nor
remain in close proximity for extended periods.
Id. at 1613. The Chief Justice further explained:
The precise question of when restrictions on
particular social activities should be lifted
during the pandemic is a dynamic and factintensive matter subject to reasonable disagreement. Our Constitution principally entrusts “[t]he safety and the health of the
people” to the politically accountable ofﬁcials
of the States “to guard and protect.” Jacobson
v. Massachusetts, 197 U.S. 11, 38 (1905). When
those ofﬁcials “undertake[ ] to act in areas
fraught with medical and scientiﬁc uncertainties,” their latitude “must be especially broad.”
Marshall v. United States, 414 U.S. 417, 427
(1974). Where those broad limits are not exceeded, they should not be subject to secondguessing by an “unelected federal judiciary,”
which lacks the background, competence, and

17a
expertise to assess public health and is not
accountable to the people. See Garcia v. San
Antonio Metropolitan Transit Authority, 469
U.S. 528, 545 (1985).
Id. Justice Kavanaugh dissented. He reasoned that
indoor worship services are comparable to “factories,
ofﬁces, supermarkets,” and various other secular establishments that were not subject to the same occupancy cap. Id. at 1614. And although “California
undoubtedly has a compelling interest in combating
the spread of COVID-19 and protecting the health of
its citizens,” Justice Kavanaugh reasoned California’s
restrictions discriminate against religion because the
State lacks a compelling justiﬁcation for distinguishing between worship services and the aforementioned
secular businesses. Id. at 1615.
E. Continued Developments and Limited
Remand
Singing Restrictions. After the Supreme Court’s
decision, the State and County ofﬁcials continued to
“actively shap[e] their response to changing facts on
the ground.” See 140 S. Ct. at 1614 (Roberts, C.J.).
In early July, the State issued revised guidance that
requires places of worship to “discontinue indoor singing and chanting activities” because such activities
“negate the risk reduction achieved through six feet of
physical distancing.” (SAC Ex. 1-9.) This prohibition on
indoor group singing and chanting similarly applies to

18a
political protests, schools, and restaurants.5 (See Dr.
Watt Decl. ¶¶ 88–90 (explaining why the State imposed restrictions on these activities and noting that
other gatherings that involve “an elevated risk of
COVID-19 virus spread through singing, chanting or
similar activities, such as those at live concerts, live
music venues, live theatrical performances, spectator
sports, recreational team sports, theme parks and
indoor protests, remain prohibited throughout the
State”).)
July 13 Closure Order. Then, on July 13, 2020, due
to the “signiﬁcant increase in the spread of COVID-19,”
the State issued an order re-imposing many previously
relaxed restrictions on indoor activities. (SAC Ex. 113.) In addition, for those counties on the State’s
“County Monitoring List,” which are those the State
believed showed “concerning levels of disease transmission, hospitalizations, insufﬁcient testing, or other
critical epidemiological markers,” the order closed various indoor businesses, as well as “places of worship.”
(Id.)
Limited Remand. Meanwhile, on July 10, 2020,
while Plaintiffs’ interlocutory appeal was pending,
5

(Gabrasky Decl. Ex. 14 (providing “singing and chanting
activities are discontinued” for “indoor protests”); Ex. 15 (providing “[a]ctivities where there is increased likelihood for transmission from contaminated exhaled droplets such as band and choir
practice and performances are not permitted” and any activities
“that involve singing must only take place outdoors”); Ex. 16
(providing restaurants “must discontinue” concert or performancelike entertainment “until these types of activities are allowed to
resume”).)

19a
Plaintiffs moved this Court for an indicative ruling to
revisit its denial of their initial motion. (ECF No. 45.)
The Court granted their request, reasoning it raised a
substantial issue. (ECF No. 46.) Plaintiffs then ﬁled
their Second Amended Complaint. (ECF No. 47.) And
on July 29, 2020, the Ninth Circuit remanded the appeal “for the limited purpose of permitting the district
court to consider Plaintiffs’ request in light of the
events and case law that have developed since May 15,
2020.” (ECF No. 49.)
Four-Tier System. On August 10, 2020, Plaintiffs
ﬁled their renewed motion for a temporary restraining
order or a preliminary injunction. (Renewed Mot., ECF
No. 53.) While the motion was being briefed, circumstances again changed. On August 28, 2020, due to
“increased knowledge of disease transmission vulnerabilities and risk factors,” the State established a new
four-tier system for reopening, which superseded the
State’s July 13 order. (Grabarsky Decl. Exs. 50–53.)
Under this four-tier system, which is more nuanced
than the State’s prior restrictions, lower-risk activities
and sectors are permitted to resume sooner than
higher-risk ones based on a series of “risk criteria.”
These criteria include the ability “to physically distance between individuals from different households,”
“to limit the number of people per square foot,” “to limit
duration of exposure,” “to optimize ventilation (e.g. indoor vs outdoor, air exchange and ﬁltration),” and “to
limit activities that are known to cause increased
spread” like singing and shouting. (Id. Ex. 51; see also
Dr. Rutherford Decl. ¶¶ 57–71 (discussing risks of

20a
indoor religious worship and cultural events, grocery
shopping, restaurant dining, and factories and
whether those environments involve the “heightened
risk created by group singing”).)
Counties are assigned to a tier based on their reported COVID-19 case rate and percentage of positive
COVID-19 tests. (Grabarsky Decl. Ex. 50.) For example, Tier 2 is the red-colored tier, which marks “substantial” risk of community disease transmission. (Id.)
The State placed San Diego County into this tier when
Plaintiffs’ motion was being briefed, and the County
remains there now. (Id. Ex. 52-1.)6 In this tier, Plaintiffs again may hold indoor worship services up to 25%
of building capacity or 100 persons, whichever is fewer.
(Id. Exs. 52–23.) Indoor restaurants and movie theaters in the County are subject to the same attendance
restrictions as worship services, but bars, wineries,
cardrooms, concerts, sporting events, family entertainment centers, and theatrical performances remain
either closed entirely or restricted to outdoor activities
only. (Id. Ex. 53.) Retail stores—except standalone grocers—are limited to 50% capacity indoors with modiﬁcations. (Id.) Non-critical ofﬁce spaces are designated
6

Although the facts underlying the State’s decision making
with respect to its four-tier system may be subject to dispute, the
fact that the State has placed and kept San Diego County in Tier
2 is not subject to reasonable dispute. See Blueprint for a Safer
Economy—Current Tier Assignments as of October 13, 2020,
https://covid19.ca.gov/safer-economy/; see also Fed. R. Evid.
201(b); King v. Cty. of Los Angeles, 885 F.3d 548, 555 (9th Cir.
2018) (taking judicial notice of “undisputed and publicly available
information displayed on government websites”).

21a
“remote,” and gyms are limited to 10% capacity indoors. (Id.)
The State and County ﬁled oppositions to Plaintiffs’ renewed motion, and Plaintiffs ﬁled a reply to
each opposition. (State’s Opp’n, ECF No. 57; County’s
Opp’n, ECF No. 58; County’s Joinder, ECF No. 59;
Reply to State’s Opp’n, ECF No. 61; Reply to County’s
Opp’n, ECF No. 61-1.)7 Further, on September 4, 10, 11,
7

Plaintiffs lodge 142 evidentiary objections to the evidence
submitted by California and the County. (ECF No. 61-6.) Among
raising other objections, Plaintiffs argue certain evidence is hearsay, irrelevant, “more prejudicial than probative,” or lacks foundation. (Id. at 1:12–142.) The State responds. (ECF No. 65.)
The Court overrules these objections. Evidence submitted in
connection with a request for a preliminary injunction is not subject to the same requirements that would apply at trial. See Flynt
Distrib. Co. v. Harvey, 734 F.2d 1389, 1394 (9th Cir. 1984); see
also, e.g., Johnson v. Couturier, 572 F.3d 1067, 1083 (9th Cir.
2009) (“A district court may, however, consider hearsay in deciding whether to issue a preliminary injunction.”); Nat’l Riﬂe Ass’n
of Am. v. City of Los Angeles, 441 F. Supp. 3d 915, 926 (C.D. Cal.
2019) (“Because of the extraordinary nature of injunctive relief
. . . a district court may consider evidence outside the normal
rules of evidence, including: hearsay, exhibits, declarations, and
pleadings.”); Rosen Entm’t Sys., LP v. Eiger Vision, 343
F. Supp. 2d 908, 912 (C.D. Cal. 2004) (applying the Ninth Circuit’s reasoning in Flynt to objections to the defendant’s evidence).
Rather, the evidence’s form impacts the weight it is given when
the court assesses the merits of equitable relief. Rosen, 343
F. Supp. 2d at 912. Indeed, the Court notes that both parties, including their proposed experts, routinely rely on various reported
statistics for COVID-19. (See, e.g., SAC ¶¶ 105–112 (citing statistics prepared by California and the County); Cicchetti Decl.
¶¶ 17–19 (citing data from Politico and The New York Times);
Dr. Delgado Decl. ¶¶ 7–14 (relying on CDC and non-governmental website data); Lyons-Weiler Decl. ¶¶ 10–18, 27 (citing information from the European CDC and an assortment of news

22a
and 14, and on October 1, 6, 7, and 13, 2020, the parties
ﬁled notices of supplemental authority, all of which the
Court has considered. (ECF Nos. 60, 62–64, 66–68, 70.)
III. LEGAL STANDARD
The standard for a temporary restraining order
and preliminary injunction are “substantially identical.” Stuhlbarg Int’l Sales Co. v. John D. Brush & Co.,
240 F.3d 832, 839 n.7 (9th Cir. 2001). “A plaintiff seeking a preliminary injunction must establish that [it] is
likely to succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that the balance of equities tips in [its] favor, and
that an injunction is in the public interest.” Winter, 555
U.S. at 20. The party seeking the injunction bears the
burden of proving these elements. Klein v. City of San
Clemente, 584 F.3d 1196, 1201 (9th Cir. 2009). “A preliminary injunction is ‘an extraordinary and drastic
remedy, one that should not be granted unless the movant, by a clear showing, carries the burden of persuasion.’ ” Lopez v. Brewer, 680 F.3d 1068, 1072 (9th Cir.
2012) (quoting Mazurek v. Armstrong, 520 U.S. 968,
972 (1997)).

sources like Bloomberg and US News and World Report); Trissell
Decl. Exs. A–C (appending CDC and County statistics); Dr. Watt
Decl. ¶¶ 93–103; Dr. Rutherford Decl. ¶ 25.) To the extent the
Court cites to evidence that Plaintiffs object to, the Court has
determined Plaintiffs’ objections are meritless or the evidence deserves some weight at this stage notwithstanding concerns over
its admissibility at trial.

23a
IV. ANALYSIS
Against this backdrop, the Court considers Plaintiffs’ renewed request for injunctive relief against the
State and County ofﬁcials. Plaintiffs tailor their renewed motion to their “Free Exercise Claims under the
U.S. and California Constitutions.” (Renewed Mot. 8
n.4.) Therefore, the Court focuses its analysis on these
claims.
Further, the Court analyzes these claims in light
of the current restrictions that apply to the Church. As
summarized above, San Diego County is in the State’s
“red” tier—Tier 2. Thus, worship services may be held
outdoors and include singing and chanting outdoors.
Indoor worship services, however, are limited to up to
100 people or 25% of building capacity, whichever is
fewer, and may not include singing or chanting. See supra Part II.E. Because Plaintiffs wish to hold indoor
worship services that include group singing and exceed
the Tier 2 limit on attendees, the Court considers
whether Plaintiffs have demonstrated a likelihood of
success on their claims that these restrictions violate
their federal and state constitutional free exercise
rights. (See Renewed Mot. 6:25–7:6.)
At bottom, Plaintiffs’ renewed motion asks the
Court to second guess decisions made by California ofﬁcials concerning whether COVID-19 continues to present a health emergency and whether large indoor
gatherings with singing pose a risk to public health.
Although not binding, the Court ﬁnds Chief Justice
Roberts’s reasoning in this case to be compelling. The

24a
background set forth above shows the State and
County “are actively shaping their response to
changing facts on the ground.” See 140 S. Ct. at 1614
(Roberts, C.J.). And the evidence demonstrates the
COVID-19 pandemic remains an area “fraught with
medical and scientiﬁc uncertainties,” where the State
and County’s latitude “must be especially broad.” See
id. at 1613 (quoting Marshall, 414 U.S. at 427).
Moreover, neither Plaintiffs’ evidence nor their
arguments convincingly show that the current restrictions exceed “those broad limits.” See 140 S. Ct. at
1613. Hence, the Court ﬁnds Plaintiffs have not
demonstrated a likelihood of success on the merits of
their free exercise claims. See id. at 1614 (“Where those
broad limits are not exceeded, they should not be subject to second-guessing by an ‘unelected federal judiciary,’ which lacks the background, competence, and
expertise to assess public health and is not accountable
to the people.” (quoting Garcia, 469 U.S. at 545)). Consequently, Plaintiffs are not entitled to the “extraordinary and drastic remedy” that is injunctive relief
before trial. See Lopez, 680 F.3d at 1072 (providing the
court should not issue a preliminary injunction “unless
the movant, by a clear showing, carries the burden of
persuasion”); accord City & Cty. of San Francisco v.
U.S. Citizenship & Immigr. Servs., 944 F.3d 773, 789
(9th Cir. 2019).
The Court further expands upon its analysis below
while addressing Plaintiffs’ claims that (i) COVID-19
no longer presents a public health emergency, (ii) the
State’s restrictions discriminate against places of

25a
worship, and (iii) the State’s restrictions have been discriminatorily enforced.
A. Public Health Emergency
The Court previously reasoned that the State
“may limit an individual’s right to freely exercise his
religious beliefs when faced with a serious health crises” like that presented by COVID-19. (Mot. Hr’g Tr.
25:19–25, ECF No. 38 (citing Jacobson v. Massachusetts, 197 U.S. 11 (1905).) In Plaintiffs’ renewed motion,
they argue the COVID-19 pandemic has stabilized in
California, as the State “had only reported a total of
7,227 deaths” as of July 14, 2020. (Renewed Mot. 1:24–
25 (citing COVID-19 Statewide Update for July 15,
2020, SAC Ex. 5-3).) They also argue curbing the virus
is no longer “a compelling interest” given “the ﬂattening of the death and hospitalization rates, regardless
of the infection rate,” as “numerous experts have concluded that the worst of the pandemic is absolutely
over.” (Id. 11:3–5.) Plaintiffs later argue that California’s “scientific pronouncements” are “largely baseless,”
and that by “all reasonable scientiﬁc measurements,”
the COVID-19 health emergency “has ended.” (Reply to
State’s Opp’n 1:12–15.)
Plaintiffs’ position is not convincing. For one, arguments of counsel are not evidence. See, e.g., CarrilloGonzalez v. I.N.S., 353 F.3d 1077, 1079 (9th Cir. 2003).
In determining whether to grant extraordinary relief,
this Court is not bound by Plaintiffs’ counsel’s interpretation of CDC statistics or what they believe is an

26a
acceptable death rate for COVID-19 compared to other
causes of death—many of which are not contagious
and are well-understood by the scientiﬁc community.
(See Renewed Mot. 1:13–3:4; Reply to State’s Opp’n
1:13–25; see also Dr. Watt Decl. ¶¶ 101–02.)8 Second,
the State’s evidence regarding infections and deaths
amply demonstrates that SARS-CoV-2 and COVID-19
continue to present a public health emergency in California, including in the County of San Diego. (Dr. Watt
Decl. ¶¶ 16–103; Dr. Rutherford Decl. ¶¶ 16–46.)
Third, Plaintiffs’ contrary evidence is not compelling.
At best, Plaintiffs’ evidence conﬁrms that “[t]he precise
question of when restrictions on particular social activities should be lifted during the pandemic is a dynamic and fact-intensive matter subject to reasonable
8

Plaintiffs highlight that “the CDC updated its coronavirus
statistics to reveal that for 94% of coronavirus related deaths, ‘in
addition to COVID-19, on average, there were 2.6 additional’
comorbidities.” (Reply to State Opp’n 1:15–22 (citing Trissell Decl.
Ex. NN, ECF No. 61-5).) They extrapolate this 94% statistic to
determine a much smaller infection-fatality rate for those who
“are healthy and have no other comorbidities.” (Id. 1:21–22.) That
characterization is problematic. The “comorbidities” listed in the
CDC’s data include not only common health conditions like obesity, diabetes, and hypertension, but also conditions that COVID19 itself can cause before death—like “pneumonia” and “respiratory failure.” (Trissell Decl. Ex. NN at 5–6; see also Dr. Watt Decl.
¶ 21; Dr. Rutherford Decl. ¶ 21 (“The disease typically starts as a
fever and cough that progresses to respiratory distress and pneumonia in some individuals. In its most severe form it causes respiratory and/or myocardial failure.”).) The State, of course, has a
compelling interest in protecting all of its residents from a communicable disease—including those residents with conditions
like obesity and diabetes that may ultimately be “comorbidities”
along with COVID-19.

27a
disagreement.”9 See S. Bay Church, 140 S. Ct. at 1613
(Roberts, C.J.). And because Plaintiffs do not show “the
9

Compare Cicchetti Decl. ¶ 20, ECF No. 53-5 (claiming, as
an economist, that there “is no scientiﬁc evidence that supports
California continuing to restrict religious worship”), and Kauffman Decl. ¶ 14, ECF No. 53-6 (expressing that “[d]espite the
state’s claim, there is no rational and legitimate scientiﬁc or public health basis supporting the sweeping breadth and scope of
the State of California’s above-described closure mandate”), and
Lyons-Weiler Decl. ¶ 29, ECF No. 53-7 (opining that the increasing cases in the United States “are not as large of a concern as
they were in the beginning of the pandemic” because the “infection case fatality rate . . . is falling fast” and “COVID-19 is not the
monster we initially thought it was”), and Dr. Bhattacharya Decl.
¶ 28, ECF No. 53-8 (estimating the “infection fatality rate is less
than 0.2%” for “the non-elderly congregants,” whereas the mortality risk for those over seventy who contract the disease is “still
small, with 98.7% of infected elderly people surviving the infection”), and Trissell Decl. Exs. D–F, ECF No. 69-1 (arguing that
current lockdown policies are producing detrimental effects on
short and long-term public health and “[t]he most compassionate
approach that balances the risks and beneﬁts of reaching herd
immunity, is to allow those who are at minimal risk of death to
live their lives normally to build up immunity to the virus through
natural infection, while better protecting those who are at highest
risk”), with Watt Decl. ¶¶ 93–103, ECF No. 57-2 (explaining that
having “a single infectious disease as a top ranking cause of death
signals a serious change” because “[i]nfectious diseases were commonly the top causes of death decades ago, but they have been
replaced with chronic diseases more recently because our public
health efforts have led to reductions in infectious disease”), and
Dr. Rutherford Decl. ¶¶ 38–46, ECF No. 57-3 (opining that “the
novel coronavirus pandemic calls for extraordinary measures to
protect the population” not only because it causes serious illness
or death, but also because there is “emerging evidence that the
virus has serious lasting, and possibly long-term, effects on some
individuals”), and Imrey Decl. ¶ 50, ECF No. 57-4 (opining that
“Dr. Bhattacharya’s seroprevalence-survey based claims of very
low overall and age-speciﬁc COVD-19 infection fatality rates,

28a
broad limits” of the State and County’s discretion in
this context are being exceeded, second guessing their
decisions is not appropriate. See id.; see also San Francisco, 944 F.3d at 789 (providing the court should not
issue a preliminary injunction “unless the movant, by
a clear showing, carries the burden of persuasion”).
Accordingly, the Court rejects Plaintiffs’ claim that the
State’s restrictions are unconstitutional because the
COVID-19 public health emergency has ended.
B. Discriminatory Restrictions
“Where state action does not ‘infringe upon or restrict practices because of their religious motivation’
and does not ‘in a selective manner impose burdens
only on conduct motivated by religious belief,’ it does
not violate the First Amendment.” S. Bay Church, 959
F.3d at 939 (quoting Lukumi, 508 U.S. at 532). In determining whether a law discriminates against religion, courts compare the treatment of religious conduct
and “analogous non-religious conduct” and consider
whether the governmental interests “could be achieved
by narrower ordinances that burden[ ] religion to a far
lesser degree.” Lukumi, 508 U.S. at 546.
As mentioned, the Court’s decision to deny Plaintiffs’ initial request for injunctive relief also rested on
the Court’s determination that the then-operative restrictions did not place a burden on in-person worship
services “because of a religious motivation, but because
generally and speciﬁcally in California, remain matters on which,
for good reasons, there is no scientiﬁc consensus”).

29a
of the manner in which the service is held, which happens to pose a greater risk of exposure to the virus.”
(Mot. Hr’g Tr. 26:9–25.) The Court further determined
that Plaintiffs had “not demonstrated arbitrary exceptions to [the] classiﬁcation” of restrictions that included in-person worship services. (Id. 27:5–6.)
Plaintiffs argue the revised restrictions do not pass
muster under Free Exercise Clause standards for an
assortment of reasons, including that the State’s fourtier system gives preferential treatment to secular
businesses like supermarkets, retail stores, and factories. (See Renewed Mot. 8:11–17:22.)
In resolving Plaintiffs’ free exercise arguments,
the Court ﬁnds persuasive Judge Bernal’s decision
from the Central District of California that considered
the same four-tier system in Harvest Rock Church, Inc.
v. Newsom, No. LACV 20-6414 JGB (KKx), 2020 WL
5265564 (C.D. Cal. Sept. 2, 2020), and the Ninth Circuit’s subsequent opinion, No. 20-55907, 2020 WL
5835219 (9th Cir. Oct. 1, 2020). Judge Bernal denied
Harvest International Ministry and Harvest Rock
Church’s comparable request for injunctive relief, reasoning in part that they had not shown a likelihood of
success on the merits of their free exercise claims. 2020
WL 5265564, at *2–3. The plaintiffs appealed, and the
Ninth Circuit similarly denied their emergency motion
to enjoin “California Governor Gavin Newsom’s
COVID-19 Executive Orders and related restrictions
(Orders) as they apply to in-person worship services.”
2020 WL 5835219, at *2. The Ninth Circuit explained:

30a
We ﬁnd that Harvest Rock has not shown
a likelihood of success on its argument that
the district court abused its discretion by declining to enjoin the Orders. The evidence that
was before the district court does not support
Harvest Rock’s arguments that the Orders accord comparable secular activity more favorable treatment than religious activity. The
Orders apply the same restrictions to worship
services as they do to other indoor congregate
events, such as lectures and movie theaters.
Some congregate activities are completely
prohibited in every county, such as attending
concerts and spectating sporting events. The
dissent states that the restrictions applicable
to places of worship ‘do not apply broadly to
all activities that might appear to be conducted in a manner similar to religious services,’ but does not provide support for this
point. By our read the restrictions on theaters
and higher education are virtually identical.
Harvest Rock also contends that the Governor failed to provide a rationale for the more
lenient treatment of certain secular activities,
such as shopping in a large store. However,
the Governor offered the declaration of an expert, Dr. James Watt, in support of the claim
that the risk of COVID-19 is elevated in indoor congregate activities, including in-person
worship services. Harvest Rock did not offer a
competing expert or any other evidence to rebut Dr. Watt’s opinion that congregate events
like worship services are particularly risky.
Because the district court based its order on
the only evidence in the record as to the risk

31a
of spreading COVID-19 in different settings,
Harvest Rock is unlikely to show that the district court abused its discretion.
Id. at *1.
The question, then, is whether the evidence before
the Court points to a different outcome than in Harvest
Rock. It does not. As set forth above, the evidence
shows that the State’s restrictions are based on the
elevated risk of transmission of the novel coronavirus
in indoor settings, particularly congregate activities
and those involving singing and chanting. See supra
Part II.A, E. The restrictions are tailored to the State’s
understanding of the risk of certain activities and the
potential spread of SARS-CoV-2, not the targeted conduct’s religious motivation. See S. Bay Church, 959
F.3d at 939 (citing Lukumi, 508 U.S. at 532); see supra
Part II.E. And the State has continued to ﬁne tune its
restrictions “to changing facts on the ground.” See S.
Bay Church, 140 S. Ct. at 1614 (Roberts, C.J.). (See also
Dr. Watt Decl. ¶¶ 47–106.)
That said, unlike the Harvest Rock plaintiffs,
Plaintiffs here submit evidence that includes a declaration from the medical director of a family medical
group, Dr. George Delgado, who has “been intimately
involved in planning for the current coronavirus disease . . . for [his] family medical group and hospice.”
(Dr. Delgado Decl. ¶¶ 2–5, ECF No. 53-4.) Among other
things, Dr. Delgado states, “I feel that going to one’s
church, synagogue or mosque should be much safer
than going to the grocery store, participating in a

32a
protest, or working at a manufacturing facility.” (Id.
¶ 14.) To support this statement in his supplemental
declaration,10 Dr. Delgado sets forth a “comparative
risk analysis” that states the risk of contracting
COVID-19 at a house of worship is “0.125 or 12.5% the
risk at the grocery store,” “0.01 or 1% the risk at public
protests,” and “0.25 or 25% the risk at [a] manufacturing facility.” (Dr. Delgado Decl. ¶¶ 25, 33, 43.)11
The State argues Dr. Delgado’s comparative risk
assessment is both baseless and inadmissible for a
litany of reasons. (State’s Opp’n 18:5–20:17.) The State
also supplies the opinion of Peter B. Imrey, Ph.D., a
Professor of Medicine at Cleveland Clinic and Case
Western Reserve University. Imray explains why Dr.
Delgado’s broad-brushed assessment that leads to
precise probabilities of the risk of COVID-19 spread is
not accepted as reliable in the relevant scientiﬁc community. (Imrey Decl. ¶¶ 31–40 (explaining that Dr.
Delgado’s incomplete model “is unscientiﬁc” because it
does not include supporting data and there is no “practical scientiﬁc basis” for “assessing the reliability of
such numbers”). See also Daubert v. Merrell Dow
Pharm., Inc., 509 U.S. 579, 592–94 (1993) (providing the
court can consider whether a technique is acceptable
10

Dr. Delgado provided a similar declaration in support of
Plaintiffs’ initial motion for injunctive relief. (See Dr. Delgado
Decl. ¶¶ 14–23, ECF No. 12-3.)
11
Although Plaintiffs’ other declarants make statements
about the danger of COVID-19 to religious congregants and the
broader public as part of the debate referenced above, see supra
note 9, they do not provide this type of comparative risk assessment.

33a
in the relevant scientiﬁc community). In rebuttal to
Imrey’s detailed critique, Dr. Delgado states that
“there are presently no adequate models or methodologies to compare risks, and so I cite none” and that his
assessment is based “on common scientiﬁc sense.” (Dr.
Delgado Decl. ¶ 36, ECF No. 61-3.) But see Daubert v.
Merrell Dow Pharm., Inc., 43 F.3d 1311, 1319 (9th Cir.
1995) (explaining that when peer review scrutiny is
unavailable, experts should “explain precisely how
they went about reaching their conclusions and point
to some objective source—a learned treatise, the policy
statement of a professional association, a published article in a reputable scientiﬁc journal or the like—to
show that they have followed the scientiﬁc method, as
it is practiced by (at least) a recognized minority of scientists in” the relevant ﬁeld).
The Court assigns Dr. Delgado’s declaration minimal weight. Although he may have treated “people
with infectious diseases including viral illnesses such
as influenza which tend to occur in epidemics,” Dr.
Delgado lacks signiﬁcant experience in epidemiology.
(Dr. Delgado Decl. ¶¶ 2–5.) Moreover, he does not explain the basis for his model used to assess the precise
comparative risk of religious services and other activities—nor does he provide any supporting data for his
conclusions. (See id. ¶¶ 25, 31, 41 (broadly assigning
values for “relative risk” factors like “touching objects”
and being in “[c]lose contact with others” for various
different environments without offering any data to
support them); see also Imrey Decl. ¶¶ 31–40 (dissecting Dr. Delgado’s comparative risk model).) Therefore,

34a
although the Court has opted to not strictly apply the
Rules of Evidence to the parties’ submissions, see supra
note 7, the Court does not believe Dr. Delgado’s comparative risk assessment survives scrutiny under
Daubert. See 509 U.S. 579; see also Fed. R. Evid. 702
(providing expert testimony must be “based on sufﬁcient facts or data” and be “the product of reliable principles and methods”).
And ﬁnally, aside from being unreliable, Dr. Delgado’s comparative risk assessment is simply not convincing in light of the evidence before the Court. The
COVID-19 pandemic remains an area “fraught with
medical and scientiﬁc uncertainties.” See S. Bay
Church, 140 S. Ct. at 1613 (Roberts, C.J.). It is one
thing for an expert to explain why epidemiologists believe there is a higher risk of transmission of SARSCoV-2 in large gatherings, indoor spaces, and where
groups are singing indoors, it is quite another for someone to purport to calculate—without data—that the
risk of contracting COVID-19 at a house of worship is
“12.5% the risk at the grocery store” or “1% the risk
at public protests.” (See Dr. Watt Decl. ¶¶ 27–45; Dr.
Delgado Decl. ¶¶ 25, 33, 43.) See also supra note 7.
Probabilities are not derived from only “common scientiﬁc sense.” (See Dr. Delgado Decl. ¶ 36, ECF No. 61-3.)
Hence, the Court assigns some weight to Dr. Delgado’s
opinions about COVID-19, but the Court assigns no
weight to the conclusions of his comparative risk assessment.
On balance, having reviewed the parties’ evidence,
the Court ﬁnds Plaintiffs have not shown they are

35a
likely to succeed in demonstrating the State and
County’s restrictions “infringe upon or restrict practices because of their religious motivation” or “in a
selective manner impose burdens only on conduct motivated by religious belief.” See S. Bay Church, 959 F.3d
at 939 (quoting Lukumi, 508 U.S. at 533, 543); see also
Harvest Rock Church, 2020 WL 5835219, at *1–2. This
determination does not mean Plaintiffs could not prevail at a trial on the merits. Rather, they merely have
not shown they are entitled to the extraordinary remedy that is injunctive relief before trial. See San Francisco, 944 F.3d at 789 (providing the court should not
issue a preliminary injunction “unless the movant, by
a clear showing, carries the burden of persuasion”).
C. Discriminatory Enforcement
Last, the Court addresses Plaintiffs’ argument
that California’s restrictions “have been enforced discriminatorily.” (Renewed Mot. 9:13–28; see also id.
20:16–23:9.) Plaintiffs argue that “despite enforcing its
restrictions against houses of worship, California has
steadfastly refused to enforce its restrictions against
political protests,” making “places of worship” ultimately “pay for the sins of protestors . . . a palpable
violation of Plaintiffs’ rights.” (Id. 21:11–12, 23:8–9.)
See also Stormans, Inc. v. Wiesman, 794 F.3d 1064,
1083–84 (9th Cir. 2015) (analyzing a claim of
whether Washington’s Pharmacy Quality Assurance
Commission selectively enforced rules concerning
emergency contraceptives “against religiously motivated violations but not against secularly motivated

36a
violations” in contravention of the Free Exercise
Clause).
The Court is unconvinced. Plaintiffs are challenging the State and County’s restrictions on indoor
worship and group singing—not outdoor gatherings or
protests. The operative restrictions do not limit attendance for outdoor religious services or outdoor protests.
(See SAC Ex. 1-7; Grabarsky Decl. Ex. 14.) And the
challenged restriction on group singing applies equally
to indoor religious services and indoor protests. See
supra Part II.E. Further, as described above, the distinction between indoor and outdoor gatherings is
based on the State’s understanding of the increased
risk of transmission of the novel coronavirus indoors.
The same is true for the distinction between indoor
and outdoor group singing. See supra Part II.A, E.
Hence, the Court agrees that by focusing on outdoor
protests, “Plaintiffs are comparing apples and oranges.” (State’s Opp’n 28:3–4.) Indeed, Judge Bernal
rejected a similar argument in Harvest Rock Church.
See 2020 WL 5265564, at *2 (reasoning that “how the
Orders treat outdoor protests is irrelevant to whether
the Orders’ restriction on indoor religious services is
constitutional” and “whether the Governor encouraged
outdoor protests that violated earlier stay-at-home orders is” likewise “irrelevant”).12 The evidence in this
case leads the Court to the same conclusion.
12

For this same reason, the Court ﬁnds distinguishable the
district court’s discussion of protests in Capital Hill Baptist
Church v. Muriel Bowser, No. 20-CV-02710 (TNM), 2020 WL
5995126 (D.D.C. Oct. 9, 2020). (See ECF No. 70.) In that case, the

37a
Moreover, the Court agrees that Plaintiffs do not
otherwise demonstrate a pattern of discriminatory enforcement. On this point, the County shows that as of
August 26, 2020, it “had issued 144 citations for violations of the County’s COVID-19 public health orders.”
(Jordan Decl. ¶ 2, Ex. A, ECF No. 58-1.) None of those
144 citations was issued to places of worship or persons
engaged in religious services. (Id. ¶ 3.)
In addition, through August 26, 2020, the County
had served ten cease-and-desist orders or compliance
letters to businesses and other entities with respect to
reported violations of the County’s public health orders. (Johnston Decl. ¶ 7, Ex. B, ECF No. 58-2.) Only
three of those items were issued to places of worship.
(Id.) The remaining seven were issued to businesses—
including gyms and a restaurant with a bar—as well
as a college and a public school district. (Id.)
Finally, aside from issuing citations and ceaseand-desist orders, the County has issued health ofﬁcer
orders that require a business or other organization to
immediately close down and cease operations. (Jordan
Decl. ¶ 9, Ex. C.) As of August 26, 2020, the County had
issued only ﬁve of these orders—none to places of worship. (Id.) Three of the ﬁve immediate-closure orders
District of Colombia contended it “has a compelling interest in
capping the number of attendees at the Church’s outdoor services.” Id. at *8 (emphasis added). Here, by contrast, the State
and County are not limiting the attendees at outdoor religious
services, and the State’s restrictions are based on its understanding of the increased risk posed by large indoor gatherings that
include group singing.

38a
were served on gyms that continued indoor operations
in violation of the applicable rules, and the other two
were issued to restaurants with bars for repeated violations of social distancing, sanitation, and facial covering requirements. (Id.) The County submits that this
evidence shows its “enforcement of COVID-19 public
health orders and regulations has been uniform, evenhanded, and in no way has treated secular businesses
or activities more favorably than religious organizations or services.” (County’s Opp’n 10:11–16.)
In response, Plaintiffs claim the County “misses
the point” because the County “treats protestors as
ﬁrst-class citizens.” (Reply to County Opp’n 8:16–9:12.)
The Court disagrees. The manner in which the County
is enforcing the State’s COVID-19 restrictions goes to
the heart of whether there has been discriminatory
enforcement. The evidence does not show a pattern of
discriminatory enforcement against religious organizations. Nor does the evidence show the County has
treated comparable secular businesses or activities
more favorably than religious organizations. Therefore, Plaintiffs do not meet their burden on this point.
See Stormans, 794 F.3d at 1083–84 (concluding there
was no evidence of selective enforcement by the state
commission against religiously motivated violations).
Overall, the Court ﬁnds that Plaintiffs have not
shown they are likely to succeed on their claim that the
challenged restrictions are unconstitutional in light of
discriminatory enforcement. Hence, injunctive relief is
similarly not appropriate on this basis. See San Francisco, 944 F.3d at 789 (providing the court should not

39a
issue a preliminary injunction “unless the movant, by
a clear showing, carries the burden of persuasion”).
V.

CONCLUSION

In sum, Plaintiffs have not demonstrated that new
developments mean they are likely to succeed on their
free exercise claims under the federal and state constitutions. The Court’s analysis of the remaining injunctive relief factors remains the same. (See Mot. Hr’g Tr.
30:3–19.) Plaintiffs thus have not shown they are entitled to injunctive relief before a trial on the merits.
Consequently, the Court conﬁrms its prior conclusions
and DENIES Plaintiffs’ renewed motion for a temporary restraining order or preliminary injunction (ECF
No. 53). For the same reasons, the Court also conﬁrms
that an injunction pending appeal is not appropriate.
IT IS SO ORDERED.
DATED:
October 14, 2020

/s/ Cynthia Bashant
Hon. Cynthia Bashant
United States District Judge

40a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SOUTH BAY UNITED
PENTECOSTAL CHURCH,
a California nonproﬁt corporation; BISHOP ARTHUR
HODGES III, an individual,
Plaintiffs-Appellants,
v.

No. 20-55533
D.C. No.
3:20-cv-00865-BAS-AHG
Southern District of
California, San Diego
ORDER
(Filed Jul. 29, 2020)

GAVIN NEWSOM, in his
ofﬁcial capacity as the
Governor of California; et al.,
Defendants-Appellees.
On July 10, 2020, Plaintiffs-Appellants filed a
motion for a limited remand to the district court for it
to reconsider whether to enjoin California’s orders regarding the COVID-19 pandemic, in light of changes to
those orders and other developments since Plaintiffs
ﬁled the present appeal on May 15, 2020. See Dkt. 56.
The speciﬁc developments relevant to Plaintiffs’ request are outlined in Plaintiffs’ Motion for Indicative
Ruling and the Second Amended Complaint ﬁled with
the district court. Case No. 3:20-cv-00865-BAS-AHG,
Dkt. Nos. 45, 47.

41a
The panel construes Plaintiffs’ request as a renewed application for a temporary restraining order
and an order to show cause re: preliminary injunction.
The district court presently lacks jurisdiction to consider this request, G & M, Inc. v. Newbern, 488 F.2d
742, 746 (9th Cir. 1973), but the district court has issued an indicative ruling stating that the request
raises a substantial issue. Dkt. 58. Accordingly, the
panel GRANTS Plaintiffs’ motion for limited remand
pursuant to Federal Rule of Appellate Procedure 12.1.
The panel retains jurisdiction of the case and remands it for the limited purpose of permitting the district court to consider Plaintiffs’ request in light of the
events and case law that have developed since May 15,
2020. On remand, the district court may order supplemental brieﬁng as necessary to address Plaintiffs’ request.1 The oral argument set for August 12, 2020, is
vacated, and this appeal is stayed pending the results
of the limited remand ordered herein. The parties shall
notify the Clerk of Court when the district court has
decided the motion on remand. See FRAP 12.1(b).

1

The court notes that Defendants did not have the opportunity to respond to the Plaintiffs’ motion for indicative ruling
ﬁled with the district court, and agrees with Defendants’ assertion that they should be afforded an opportunity to respond to the
points raised therein in order to assist the district court in making
its ﬁndings on remand.

42a
IT IS SO ORDERED.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Allison Fung
Deputy Clerk
Ninth Circuit Rule 27-7

43a
APPENDIX C
Cite as: 590 U. S. ___ (2020)
ROBERTS, C. J. concurring
SUPREME COURT OF THE UNITED STATES
-----------------------------------------------------------------------

No. 19A1044
-----------------------------------------------------------------------

SOUTH BAY UNITED PENTECOSTAL CHURCH,
ET AL., v. GAVIN NEWSOM, GOVERNOR
OF CALIFORNIA, ET AL.
ON APPLICATION FOR INJUNCTIVE RELIEF
[May 29, 2020]
The application for injunctive relief presented to
JUSTICE KAGAN and by her referred to the Court is
denied.
JUSTICE THOMAS, JUSTICE ALITO, JUSTICE GORSUCH, and JUSTICE KAVANAUGH would grant the application.
CHIEF JUSTICE ROBERTS, concurring in denial of
application for injunctive relief.
The Governor of California’s Executive Order
aims to limit the spread of COVID–19, a novel severe
acute respiratory illness that has killed thousands of
people in California and more than 100,000 nationwide. At this time, there is no known cure, no effective
treatment, and no vaccine. Because people may be infected but asymptomatic, they may unwittingly infect

44a
others. The Order places temporary numerical restrictions on public gatherings to address this extraordinary health emergency. State guidelines currently
limit attendance at places of worship to 25% of building capacity or a maximum of 100 attendees.
Applicants seek to enjoin enforcement of the Order. “Such a request demands a signiﬁcantly higher
justiﬁcation than a request for a stay because, unlike
a stay, an injunction does not simply suspend judicial
alteration of the status quo but grants judicial intervention that has been withheld by lower courts.” Respect Maine PAC v. McKee, 562 U. S. 996 (2010)
(internal quotation marks omitted). This power is used
where “the legal rights at issue are indisputably clear”
and, even then, “sparingly and only in the most critical
and exigent circumstances.” S. Shapiro, K. Geller, T.
Bishop, E. Hartnett & D. Himmelfarb, Supreme Court
Practice §17.4, p. 17-9 (11th ed. 2019) (internal quotation marks omitted) (collecting cases).
Although California’s guidelines place restrictions
on places of worship, those restrictions appear consistent with the Free Exercise Clause of the First
Amendment. Similar or more severe restrictions apply
to comparable secular gatherings, including lectures,
concerts, movie showings, spectator sports, and theatrical performances, where large groups of people
gather in close proximity for extended periods of time.
And the Order exempts or treats more leniently only
dissimilar activities, such as operating grocery stores,
banks, and laundromats, in which people neither

45a
congregate in large groups nor remain in close proximity for extended periods.
The precise question of when restrictions on particular social activities should be lifted during the pandemic is a dynamic and fact-intensive matter subject
to reasonable disagreement. Our Constitution principally entrusts “[t]he safety and the health of the people” to the politically accountable ofﬁcials of the States
“to guard and protect.” Jacobson v. Massachusetts, 197
U. S. 11, 38 (1905). When those ofﬁcials “undertake[ ]
to act in areas fraught with medical and scientiﬁc uncertainties,” their latitude “must be especially broad.”
Marshall v. United States, 414 U. S. 417, 427 (1974).
Where those broad limits are not exceeded, they should
not be subject to second-guessing by an “unelected federal judiciary,” which lacks the background, competence, and expertise to assess public health and is not
accountable to the people. See Garcia v. San Antonio
Metropolitan Transit Authority, 469 U. S. 528, 545
(1985).
That is especially true where, as here, a party
seeks emergency relief in an interlocutory posture,
while local ofﬁcials are actively shaping their response
to changing facts on the ground. The notion that it is
“indisputably clear” that the Government’s limitations
are unconstitutional seems quite improbable.

46a
Cite as: 590 U. S. ___ (2020)
KAVANAUGH, J. dissenting
SUPREME COURT OF THE UNITED STATES
-----------------------------------------------------------------------

No. 19A1044
-----------------------------------------------------------------------

SOUTH BAY UNITED PENTECOSTAL CHURCH,
ET AL., v. GAVIN NEWSOM, GOVERNOR
OF CALIFORNIA, ET AL.
ON APPLICATION FOR INJUNCTIVE RELIEF
[May 29, 2020]
JUSTICE KAVANAUGH, with whom JUSTICE THOMAS
and JUSTICE GORSUCH join, dissenting from denial of
application for injunctive relief.
I would grant the Church’s requested temporary
injunction because California’s latest safety guidelines
discriminate against places of worship and in favor of
comparable secular businesses. Such discrimination
violates the First Amendment.
In response to the COVID–19 health crisis, California has now limited attendance at religious worship
services to 25% of building capacity or 100 attendees,
whichever is lower. The basic constitutional problem is
that comparable secular businesses are not subject to
a 25% occupancy cap, including factories, ofﬁces, supermarkets, restaurants, retail stores, pharmacies, shopping malls, pet grooming shops, bookstores, ﬂorists,
hair salons, and cannabis dispensaries.

47a
South Bay United Pentecostal Church has applied
for temporary injunctive relief from California’s 25%
occupancy cap on religious worship services. Importantly, the Church is willing to abide by the State’s
rules that apply to comparable secular businesses, including the rules regarding social distancing and hygiene. But the Church objects to a 25% occupancy cap
that is imposed on religious worship services but not
imposed on those comparable secular businesses.
In my view, California’s discrimination against religious worship services contravenes the Constitution.
As a general matter, the “government may not use religion as a basis of classiﬁcation for the imposition of
duties, penalties, privileges or beneﬁts.” McDaniel v.
Paty, 435 U. S. 618, 639 (1978) (Brennan, J., concurring
in judgment). This Court has stated that discrimination against religion is “odious to our Constitution.”
Trinity Lutheran Church of Columbia, Inc. v. Comer,
582 U. S. ___, ___ (2017) (slip op., at 15); see also, e.g.,
Good News Club v. Milford Central School, 533 U. S. 98
(2001); Rosenberger v. Rector and Visitors of Univ. of
Va., 515 U. S. 819 (1995); Church of Lukumi Babalu
Aye, Inc. v. Hialeah, 508 U. S. 520 (1993); Lamb’s
Chapel v. Center Moriches Union Free School Dist., 508
U. S. 384 (1993); McDaniel, 435 U. S. 618.
To justify its discriminatory treatment of religious
worship services, California must show that its rules
are “justiﬁed by a compelling governmental interest”
and “narrowly tailored to advance that interest.”
Lukumi, 508 U. S., at 531-532. California undoubtedly
has a compelling interest in combating the spread of

48a
COVID–19 and protecting the health of its citizens.
But “restrictions inexplicably applied to one group and
exempted from another do little to further these goals
and do much to burden religious freedom.” Roberts v.
Neace, 958 F. 3d 409, 414 (CA6 2020) (per curiam).
What California needs is a compelling justiﬁcation for
distinguishing between (i) religious worship services
and (ii) the litany of other secular businesses that are
not subject to an occupancy cap.
California has not shown such a justiﬁcation. The
Church has agreed to abide by the State’s rules that
apply to comparable secular businesses. That raises
important questions: “Assuming all of the same precautions are taken, why can someone safely walk down
a grocery store aisle but not a pew? And why can someone safely interact with a brave deliverywoman but not
with a stoic minister?” Ibid.
The Church and its congregants simply want to be
treated equally to comparable secular businesses. California already trusts its residents and any number of
businesses to adhere to proper social distancing and
hygiene practices. The State cannot “assume the worst
when people go to worship but assume the best when
people go to work or go about the rest of their daily
lives in permitted social settings.” Ibid.
California has ample options that would allow it
to combat the spread of COVID–19 without discriminating against religion. The State could “insist that the
congregants adhere to social-distancing and other
health requirements and leave it at that—just as the

49a
Governor has done for comparable secular activities.”
Id., at 415. Or alternatively, the State could impose
reasonable occupancy caps across the board. But absent a compelling justiﬁcation (which the State has not
offered), the State may not take a looser approach with,
say, supermarkets, restaurants, factories, and ofﬁces
while imposing stricter requirements on places of worship.
The State also has substantial room to draw lines,
especially in an emergency. But as relevant here, the
Constitution imposes one key restriction on that linedrawing: The State may not discriminate against religion.
In sum, California’s 25% occupancy cap on religious worship services indisputably discriminates
against religion, and such discrimination violates the
First Amendment. See Ohio Citizens for Responsible
Energy, Inc. v. NRC, 479 U. S. 1312 (1986) (Scalia, J., in
chambers). The Church would suffer irreparable harm
from not being able to hold services on Pentecost Sunday in a way that comparable secular businesses and
persons can conduct their activities. I would therefore
grant the Church’s request for a temporary injunction.
I respectfully dissent.

50a
APPENDIX D
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SOUTH BAY UNITED PENTE- No. 20-55533
COSTAL CHURCH, a California D.C. No. 3:20-cvnonproﬁt corporation; Bishop
00865-Bas-Ahg
Arthur Hodges III, an individual,
Southern District
Plaintiffs-Appellants,
of California,
v.
San Diego
Gavin NEWSOM, in his ofﬁcial ORDER
capacity as the Governor of Cali(Filed May 22, 2020)
fornia; Xavier Becerra, in his
ofﬁcial capacity as the Attorney
General of California; Sonia
Angell, in her ofﬁcial capacity as
California Public Health Ofﬁcer;
Wilma J. Wooten, in her ofﬁcial
capacity as Public Health Officer,
County of San Diego; Helen
Robbins-Meyer, in her ofﬁcial
capacity as Director of Emergency Services; Wiliam D, Gore,
in his ofﬁcial capacity as Sheriff
of the County of San Diego,
Defendants-Appellees.
Before: SILVERMAN, NGUYEN, and COLLINS, Circuit Judges.

51a
This appeal challenges the district court’s denial
of appellants’ motion for a temporary restraining order
and order to show cause why a preliminary injunction
should not issue in appellants’ challenge to the application of the State of California and County of San Diego’s stay-at-home orders to in-person religious
services. Appellants have ﬁled an emergency motion
seeking injunctive relief permitting them to hold inperson religious services during the pendency of this
appeal.
We have jurisdiction to review the denial of a temporary restraining order where, as here, “the circumstances render the denial ‘tantamount to the denial of
a preliminary injunction.’ ” Religious Tech. Ctr., Church
of Scientology Int’l, Inc. v. Scott, 869 F.2d 1306, 1308
(9th Cir. 1989) (internal citation omitted); see also 28
U.S.C. § 1292(a)(1). Accordingly, the motion to dismiss
for lack of jurisdiction (Docket Entry No. 24) is denied.
The request to take judicial notice (Docket Entry
No. 25) is granted.
In evaluating a motion for an injunction pending
appeal, we consider whether the moving party has
demonstrated that they are likely to succeed on the
merits, that they are likely to suffer irreparable harm
in the absence of preliminary relief, that the balance of
equities tips in their favor, and that an injunction is in
the public interest. See Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20 (2008); see also Feldman v. Ariz.
Sec’y of State’s Ofﬁce, 843 F.3d 366, 367 (9th Cir. 2016)
(“The standard for evaluating an injunction pending

52a
appeal is similar to that employed by district courts in
deciding whether to grant a preliminary injunction.”).
We conclude that appellants have not demonstrated a sufﬁcient likelihood of success on appeal.
Where state action does not “infringe upon or restrict
practices because of their religious motivation” and
does not “in a selective manner impose burdens only
on conduct motivated by religious belief,” it does not
violate the First Amendment. See Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 533, 543 (1993). We’re dealing here with a highly
contagious and often fatal disease for which there presently is no known cure. In the words of Justice Robert
Jackson, if a “[c]ourt does not temper its doctrinaire
logic with a little practical wisdom, it will convert the
constitutional Bill of Rights into a suicide pact.” Terminiello v. City of Chicago, 337 U.S. 1, 37 (1949) (Jackson, J., dissenting).
The remaining factors do not counsel in favor of
injunctive relief. See Winter, 555 U.S. at 20. We therefore deny the emergency motion for injunctive relief
pending appeal (Docket Entry No. 2).1

1

sent.

Judge Collins would grant the motion and has ﬁled a dis-

53a
South Bay United Presbyterian Church v. Newson, No.
20-55533
COLLINS, Circuit Judge, dissenting:
Plaintiffs-Appellants South Bay United Pentecostal Church (the “Church”) and its Bishop, Arthur
Hodges III (collectively, “Plaintiffs”), move for a preliminary injunction pending appeal that would allow them
to conduct in-person church services. The State of California’s refusal to allow them to hold such services
likely violates the Free Exercise Clause of the First
Amendment, and so I would grant the requested injunction. Because the majority concludes otherwise, I
respectfully dissent.
I
The Church is a Christian congregation in Chula
Vista, California. Until the recent COVID-19 pandemic, the Church held between three and ﬁve Sunday
services every week, which would attract 200-300 congregants each. Its sanctuary seats 600.
On March 19, 2020, Governor Gavin Newsom issued Executive Order N-33-20. The order generally required “all individuals living in the State of California
to stay home or at their place of residence except as
needed to maintain continuity of operations of the federal critical infrastructure sectors.” The federal list of
critical sectors did not include churches. The State
public health ofﬁcer subsequently designated a comprehensive set of “Essential Critical Infrastructure

54a
Workers.” That list designated clergy as essential, but
only if they were holding services “through streaming
or other technologies that support physical distancing
and state public health guidelines.”
On April 28, the Governor announced a four-stage
“Reopening Plan” or “Resilience Roadmap,” under
which the State would initially relax the stay-at-home
order for some organizations but not others. At Stage
1, only “critical infrastructure” was exempted. At Stage
2, curbside retail and additional factories making previously non-essential “things like toys, clothing, . . .
[and] furniture” would be permitted to reopen. Stage 2
entities also included ones that would reopen at a later
date within that stage, such as schools (in an adapted
form), childcare, dine-in restaurants, outdoor museums, “destination retail, including shopping malls and
swap meets,” and ofﬁce-based businesses where telework is not possible. At Stage 3, “higher risk workplaces” like churches could reopen, along with bars,
movie theaters, hair salons, and “more personal & hospitality services.” And at Stage 4, concerts, conventions, and spectator sports could reopen. The Governor
predicted that while Phase 2 would begin in “weeks,
not months,” Phase 3 would begin in “months, not
weeks.”
On May 4, the Governor announced that Stage 2
would commence within a week. On May 8, Plaintiffs
sued the Governor and several other state ofﬁcers (collectively, “the State”) as well as various local ofﬁcials,
claiming that the Reopening Plan’s decision to place
churches within Stage 3 instead of Stage 2 violated the

55a
Free Exercise Clause of the First Amendment. The
County of San Diego implemented the Reopening Plan
in an order dated May 9, 2020. Plaintiffs ﬁled an
amended complaint on May 11.
On May 15, 2020, the district court denied Plaintiffs’ motion for both a temporary restraining order
(“TRO”) and an order to show cause (“OSC”) why a preliminary injunction allowing the Church to hold in-person services should not issue. Plaintiffs appealed and
concurrently moved for a preliminary injunction in
this court.
II
We have jurisdiction over this appeal under our
controlling decision in Religious Tech. Ctr., Church of
Scientology Int’l, Inc. v. Scott, 869 F.2d 1306 (9th Cir.
1989).1 Both in Religious Tech. Ctr. and in this case, the
plaintiffs ﬁled a motion for a TRO and for an OSC why
a preliminary injunction should not issue; the district
court denied the motion “for a TRO and an OSC following a hearing at which all parties were represented”;
and the speciﬁc grounds on which the district court denied the motion “foreclosed any interlocutory relief.”
Id. at 1308–09. As to the latter point, the district court
below agreed with the State that the Reopening Plan
is a “neutral law of general application” that is
1

The State questioned our jurisdiction in its initial opposition to Plaintiffs’ motion in this court, but it did not renew that
objection in its subsequent formal opposition. Nonetheless, we
have an obligation to consider the issue sua sponte.

56a
therefore subject only to rational basis review under
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531 (1993). Given that this threshold legal conclusion is indisputably fatal to Plaintiffs’
Free Exercise claim, “[t]he futility of any further hearing was thus patent; there was nothing left to talk
about.” Id. at 1309. The order was thus “tantamount to
a denial of a preliminary injunction,” id. at 1308, and
we therefore have jurisdiction under 28 U.S.C.
§ 1292(a)(1).
III
Plaintiffs seek a preliminary injunction pending
appeal, and the standards for such relief are well-settled. “A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence
of preliminary relief, that the balance of equities tips
in his favor, and that an injunction is in the public interest.” Winter v. Natural Res. Def. Council, Inc., 555
U.S. 7, 20 (2008). “Under our ‘sliding scale’ approach,
‘the elements of the preliminary injunction test are
balanced, so that a stronger showing of one element
may offset a weaker showing of another.’ ” Hernandez
v. Sessions, 872 F.3d 976, 998 (9th Cir. 2017) (quoting
Pimentel v. Dreyfus, 670 F.3d 1096, 1105 (9th Cir.
2012)). Here, all of these factors favor the Plaintiffs.

57a
A
In seeking injunctive relief pending appeal, Plaintiffs principally rely on their claim under the First
Amendment’s Free Exercise Clause, which provides
that “Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof.” U.S. CONST. amend. I (emphasis added). This
restriction is fully applicable to the States through the
Fourteenth Amendment. Cantwell v. Connecticut, 310
U.S. 296, 303 (1940). I conclude that Plaintiffs have established a very strong likelihood of success on the
merits of their Free Exercise claim.
1
As a threshold matter, the State contends that, in
light of the ongoing pandemic, the constitutional
standards that would normally govern our review of a
Free Exercise claim should not be applied. “Although
the Constitution is not suspended during a state of
emergency,” the State tells us, “constitutional rights
may be reasonably restricted ‘as the safety of the general public may demand’ ” (quoting Jacobson v. Massachusetts, 197 U.S. 11, 29 (1905)). According to the State,
the current emergency conditions preclude us from applying Lukumi’s familiar framework for evaluating
Free Exercise claims and require us instead to apply
Jacobson’s “highly deferential” standard of review, under which we are supposedly limited “ ‘to a determination of whether the [Governor’s] actions were taken in
good faith and whether there is some factual basis for

58a
[the] decision’ ” (quoting United States v. Chalk, 441
F.2d 1277, 1281 (4th Cir. 1971)). As the State sees it,
there is no “reason why Jacobson would not extend to
the First Amendment and other constitutional provisions” (emphasis added). I am unable to agree with this
argument, which seems to me to be fundamentally inconsistent with our constitutional order. Cf. Sterling v.
Constantin, 287 U.S. 378, 397–98 (1932) (“If this extreme position could be deemed to be well taken, it is
manifest that the ﬁat of a state Governor, and not the
Constitution of the United States, would be the supreme law of the land; that the restrictions of the Federal Constitution upon the exercise of state power
would be but impotent phrases[.]”).
The State’s motion cites no authority that can justify its extraordinary claim that the current emergency
gives the Governor the power to restrict any and all
constitutional rights, as long as he has acted in “good
faith” and has “some factual basis” for his edicts. Nothing in Jacobson supports the view that an emergency
displaces normal constitutional standards. Rather, Jacobson provides that an emergency may justify temporary constraints within those standards. As the Second
Circuit has recognized, Jacobson merely rejected what
we would now call a “substantive due process” challenge to a compulsory vaccination requirement, holding that such a mandate “was within the State’s police
power.” Phillips v. City of New York, 775 F.3d 538, 542
(2d Cir. 2015); see also Zucht v. King, 260 U.S. 174,
176(1922) (Jacobson “settled that it is within the
police power of a state to provide for compulsory

59a
vaccination”). Jacobson’s deferential standard of review is appropriate in that limited context. It might
have been relevant here if Plaintiffs were asserting a
comparable substantive due process claim, but they
are not.
Instead, Plaintiffs assert a claim under the Free
Exercise Clause, whose standards are well-established
and which applies to the States under the Fourteenth
Amendment. Cantwell, 310 U.S. at 303. Jacobson had
no occasion to address a Free Exercise claim, because
none was presented there. (That is unsurprising, because the Free Exercise Clause had not yet been held
to apply to the States when Jacobson was decided in
1905. See Phillips, 775 F.3d at 543.) Consequently, Jacobson says nothing about what standards would apply to a claim that an emergency measure violates
some other, enumerated constitutional right; on the
contrary, Jacobson explicitly states that other constitutional limitations may continue to constrain government conduct. See 197 U.S. at 25 (emergency public
health powers of the State remain subject “to the condition that no rule . . . shall contravene the Constitution of the United States, nor infringe any right
granted or secured by that instrument”). The State
suggests that the Second Circuit’s decision in Phillips
applied Jacobson to bar a First Amendment challenge,
but Phillips actually conﬁrms my narrower reading of
Jacobson. After applying Jacobson to reject the plaintiffs’ substantive due process challenge to New York’s
vaccination requirement, the court then addressed
(and rejected) the plaintiffs’ Free Exercise challenge by

60a
applying not Jacobson, but the familiar Lukumi framework that governs all Free Exercise claims. See Phillips, 775 F.3d at 543.
The Fourth Circuit’s decision in Chalk likewise
provides no support for the State’s position. In Chalk,
the defendants were pulled over for driving at 11:00
PM in violation of Asheville, North Carolina’s fournight curfew, and a search of their car revealed dynamite caps and other “materials from which an incendiary bomb could be readily produced.” See 441 F.2d at
1278–79. On appeal from the defendants’ subsequent
convictions, the Fourth Circuit rejected the defendants’
challenge to the trafﬁc stop, which was “focused on the
curfew imposed by the mayor as a restriction on their
right to travel.” Id. at 1283 (emphasis added). Applying
a deferential standard of review, the court held that the
temporary travel restrictions imposed by the shortlived curfew were justiﬁed in light of the signiﬁcant
civil unrest in Asheville that had led to the curfew order. Id. at 1282–83. Given that the defendants were not
engaged in any expressive (or religious) activity while
driving, the First Amendment was not directly implicated by the trafﬁc stop in Chalk, and so the decision
has little relevance here. If anything, Chalk’s discussion of the First Amendment undercuts the State’s argument. The Fourth Circuit stated in dicta that any
incidental impact on First Amendment rights from the
curfew would be governed by the intermediate scrutiny
standard of United States v. O’Brien, 391 U.S. 367
(1968), and the court likened the brief restriction on
travel to a time, place, and manner restriction. See 441

61a
F.2d at 1280–81, 1283. The fact that Chalk attempted
to ﬁt its comments within such existing First Amendment categories refutes the State’s notion that the existence of an emergency results in a wholesale
displacement of conventional constitutional standards.
Moreover, the State overlooks that we have expressly rejected a comparably broad reading of Chalk
in addressing a First Amendment challenge to “an
emergency order prohibiting access to portions of
downtown Seattle, Washington, during the 1999 World
Trade Organization (WTO) conference.” Menotti v. City
of Seattle, 409 F.3d 1113, 1117, 1142 n.55 (9th Cir.
2005). Instead of applying a broad “ ‘emergency exception’ ” based on Chalk, we analyzed the emergency order within the rubric of established First Amendment
time, place, and manner principles, which we held provided ample room to “take[ ] into account a balance of
the competing considerations of expression and order.”
Id. at 1142 & n.55.
Accordingly, I conclude that Plaintiffs’ challenge
must be evaluated under the traditional Lukumi
framework that governs Free Exercise claims.2

2

Notably, the State does not cite or rely upon the circuit
court decision that most directly supports its reading of Jacobson,
which is In re Abbott, 954 F.3d 772 (5th Cir. 2020). For the reasons stated, I am unable to agree with the Fifth Circuit’s conclusion that “Jacobson instructs that all constitutional rights may
be reasonably restricted to combat a public health emergency.” Id.
at 786 (emphasis in original); see also In re Rutledge, 956 F.3d
1018, 1028 (8th Cir. 2020) (generally endorsing the Fifth Circuit’s

62a
2
In addressing a Free Exercise claim under
Lukumi, the ﬁrst question is whether the challenged
restriction is one “that is neutral and of general applicability.” 508 U.S. at 531. If the answer is yes, then
“we review [it] for a rational basis.” Stormans, Inc. v.
Wiesman, 794 F.3d 1064, 1084 (9th Cir. 2015). If the
answer is no, then the restriction is subject to strict
scrutiny—that is, it “must be justiﬁed by a compelling
governmental interest and must be narrowly tailored
to advance that interest.” Lukumi, 508 U.S. at 531–32,
113 S.Ct. 2217. In denying the requested relief, the district court held that the State’s Reopening Plan is a
“neutral law of general application” and that it “is rationally based on protecting safety and stopping the virus spread.” Alternatively, the district court held that
the Reopening Plan is narrowly tailored to promote the
State’s compelling interest in public health.3 In my
view, Plaintiffs have a high likelihood of success in
their appeal of these rulings.

description of emergency powers under Jacobson). Beyond that
limited observation, I express no view on the very different substantive constitutional questions presented in those cases.
3
The district court actually reached this alternative conclusion in the context of addressing Plaintiffs’ likelihood of success
on their Free Exercise claim under the California Constitution.
Reliance on the California Constitution, however, would be inappropriate here. See Pennhurst State School & Hosp. v. Halderman, 465 U.S. 89 (1984).

63a
a
As the Supreme Court explained in Lukumi, “the
minimum requirement of neutrality is that a law not
discriminate on its face.” 508 U.S. at 533. Accordingly,
where a regulation’s operative language restricts conduct by explicit reference to the conduct’s religious
character, it is not facially neutral. Id. (citing the law
at issue in McDaniel v. Paty, 435 U.S. 618 (1978), which
applied speciﬁcally to members of the clergy, as an example of a law that on its face “imposed special disabilities on the basis of religious status”) (cleaned up).
Because the restrictions at issue here explicitly “reference . . . religious practice, conduct, belief, or motivation,” they are not “facially neutral.” Stormans, 794
F.3d at 1076.
In framing its restrictions in response to the pandemic, California did not purport simply to proscribe
speciﬁc forms of underlying physical conduct that it
identiﬁed as dangerous, such as failing to maintain social distancing or having an excessive number of persons within an enclosed space. Instead, Executive
Order N-33-20 presumptively prohibited California
residents from leaving their homes for any reason, except to the extent that an exception to that order
granted back the freedom to conduct particular activities or to travel back and forth to such activities. See
Cal. Exec. Order N-33-20 (Mar. 19, 2020)4 (ordering “all
individuals living in the State of California to stay
4

See https://www.gov.ca.gov/wp-content/uploads/2020/03/
3.19.20-attested-EO-N-33-20-COVID-19-HEALTH-ORDER.pdf.

64a
home or at their place of residence except as needed to
maintain continuity of operations of the federal critical
infrastructure sectors,” except as the State “may designate additional sectors as critical”).5 In announcing its
Reopening Plan, the State has adopted a phased approach that will progressively add more and more exceptions to the baseline stay-at-home prohibition by
designating additional speciﬁc categories of activities
that, in the State’s judgment, do not present an undue
risk to public health. See Order of the Cal. Pub. Health
Ofﬁcer (May 7, 2020)6 (“I will progressively designate
sectors, businesses, establishments, or activities that
may reopen with certain modiﬁcations, based on public
health and safety needs, and I will add additional sectors, businesses, establishments, or activities at a pace
designed to protect public health and safety.”).
As set forth by the State, the four-stage Reopening
Plan assigns “retail (curbside only), manufacturing &
logistics” to the initial portion of “Phase 2,” and in-store
retail, “child care, ofﬁces & limited hospitality, [and]
personal services” to a later portion of Phase 2. (On
May 20, 2020, San Diego County was given approval to
begin this later portion of Phase 2; it aims to promptly
5

Even the most ardent proponent of a broad reading of Jacobson must pause at the astonishing breadth of this assertion of
government power over the citizenry, which in terms of its scope,
intrusiveness, and duration is without parallel in our constitutional tradition. But since Plaintiffs do not directly challenge the
validity of the original Order here, I do not address the point further.
6
See https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH
Document Library/COVID-19/SHO Order 5-7-2020.pdf.

65a
reopen both dine-in restaurants and in-store retail
businesses.7) By contrast, “religious services” are explicitly assigned to a “Stage 3” that also includes
“movie theaters” and other “personal & hospitality services.” All reopenings under the Plan are subject to detailed, activity-by-activity State guidance that sets
forth the speciﬁc actions that each activity (such as
“manufacturing” or “warehousing facilities”) must take
(e.g., use of face coverings, social distancing, sanitation,
and employee training) in order to reopen, and to stay
open.
By explicitly and categorically assigning all in-person “religious services” to a future Phase 3—without
any express regard to the number of attendees, the size
of the space, or the safety protocols followed in such
services8—the State’s Reopening Plan undeniably “discriminate[s] on its face” against “religious conduct.”
Lukumi, 508 U.S. at 533. Although the State insists
that it has not acted out of antipathy towards religion,
the “constitutional benchmark is ‘government neutrality,’ not ‘government avoidance of bigotry.’ ” Roberts,
958 F.3d at 414-15, (quoting Colorado Christian Univ.
7

See Lori Weisberg, San Diego County gets the OK from state
to resume dining-in at restaurants, SAN DIEGO UNION-TRIBUNE
(May 20, 2020), https://www.sandiegouniontribune.com/business/
story/2020-05-20/san-diego-county-gets-the-ok-from-state-toresume-dining-in-at-restaurants.
8
In this respect, this case differs from Roberts v. Neace, 2020
WL 2316679 (6th Cir. May 9, 2020), in which the challenged order
prohibited “[a]ll mass gatherings,” and “faith-based” events were
merely listed as one example of such “mass gatherings.” Id. at
2020 WL 2316679.

66a
v. Weaver, 534 F.3d 1245, 1260 (10th Cir. 2008)). Because the Reopening Plan, on its face, is not neutral, it
is subject to strict scrutiny. Lukumi, 508 U.S. at 531–
32.
b
Even if the Reopening Plan were not facially discriminatory, it would still fail Lukumi’s additional requirement that the restrictions be “of general
applicability.” 508 U.S. at 531.
Under California’s approach—in which an individual can leave the home only for the enumerated purposes speciﬁed by the State—these categories of
authorized activities provide the operative rules that
govern one’s conduct. While the resulting highly reticulated patchwork of designated activities and accompanying guidelines may make sense from a public
health standpoint, there is no denying that this amalgam of rules is the very antithesis of a “generally applicable” prohibition. The State is continually making
judgments, at the margins, to decide what additional
activities its residents may and may not engage in, and
thus far, “religious services” have not made the cut. I
am at a loss to understand how the State’s current
maze of regulations can be deemed “generally applicable.” See Ward v. Polite, 667 F.3d 727, 740 (6th Cir.
2012) (“At some point, an exception-ridden policy takes
on the appearance and reality of a system of individualized exemptions, the antithesis of a neutral and generally applicable policy.”).

67a
The State contends that its plan is generally applicable because it assertedly classiﬁes activities neutrally, in accordance with the State’s sense of their
perceived risk. But that is not how the Reopening Plan
works. Warehousing and manufacturing facilities are
categorically permitted to open, so long as they follow
speciﬁed guidelines. But in-person “religious services”—merely because they are “religious services”—
are categorically not permitted to take place even if
they follow the same guidelines. This is, by deﬁnition,
not a generally applicable regulation of underlying
physical conduct.
3
The only remaining question is whether the Reopening Plan’s treatment of religious services satisﬁes
strict scrutiny. The district court concluded that it did,
but that is plainly wrong.
The State’s undeniably compelling interest in public health “could be achieved by narrower [regulations]
that burdened religion to a far lesser degree.” Lukumi,
508 U.S. at 546. As Plaintiffs have reiterated throughout these proceedings, they will “comply[ ] with every
single guideline that other businesses are required to
comply with.” In their papers in the district court,
Plaintiffs provided a list illustrating the range of
measures they are ready and willing to implement on
reopening, including spacing out the Church’s seating,
requiring congregants to wear face coverings, prohibiting the congregation from singing, and banning

68a
hugging, handshakes, and hand-holding. By regulating
the speciﬁc underlying risk-creating behaviors, rather
than banning the particular religious setting within
which they occur, the State could achieve its ends in a
manner that is the “least restrictive way of dealing
with the problem at hand.” Roberts, 2020 WL 2316679
at *5.9
The State’s only response on the narrow-tailoring
point is to insist that there is too much risk that congregants will not follow these rules. But as the Sixth
Circuit recently explained in Roberts, the State’s position on this score illogically assumes that the very
same people who cannot be trusted to follow the rules
at their place of worship can be trusted to do so at their
workplace: the State cannot “assume the worst when
people go to worship but assume the best when people
go to work or go about the rest of their daily lives in
permitted social settings.” Roberts, 2020 WL 2316679
at *3.
*

*

*

Therefore, I conclude that Plaintiffs are highly
likely to succeed on the merits of their Free Exercise
Clause claim.

9

On this score, it is noteworthy that, earlier today, the CDC
issued “Interim Guidance for Communities of Faith.” See https://
www.cdc.gov/coronavirus/2019-ncov/php/faith-based.html.

69a
B
All of the remaining considerations strongly favor
the entry of an injunction pending appeal. The Bishop’s
inability to hold in-person worship services, and the
Church members’ inability to attend them, are certainly irreparable injuries. Elrod v. Burns, 427 U.S.
347, 373 (1976) (“The loss of First Amendment freedoms, for even minimal periods of time, unquestionably constitutes irreparable injury.”); O Centro Espirita
Beneﬁciente Uniao Do Vegetal v. Ashcroft, 389 F.3d 973,
1008 (10th Cir. 2004) (en banc) (Seymour, J., concurring in relevant part for a majority of the court) (“[T]he
violation of one’s right to the free exercise of religion
necessarily constitutes irreparable harm.”), aff ’d sub
nom. Gonzales v. O Centro Espirita Beneﬁcente Uniao
Do Vegetal, 546 U.S. 418 (2006). The injury here is particularly poignant, given that Pentecost—which the
eponymously named Church greatly desires to celebrate—falls on May 31. Indeed, the State explicitly
“does not question the sincerity of Plaintiffs’ belief that
it is essential to gather in person for worship services.”
I do not doubt the importance of the public health
objectives that the State puts forth, but the State can
accomplish those objectives without resorting to its
current inﬂexible and overbroad ban on religious services. The balance of equities, and the public interest,
strongly favor requiring the State to honor its constitutional duty to accommodate a critical element of the
free exercise of religion—public worship.

70a
For these reasons, I would grant Plaintiffs’ request
for a preliminary injunction. I respectfully dissent.

71a
APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
SOUTH BAY UNITED
PENTECOSTAL CHURCH,
et al.,
Plaintiffs,
v.

Case No. 20-cv-865BAS-AHG
ORDER DENYING
PLAINTIFFS’
EX PARTE MOTION
FOR AN INJUNCTION PENDING
APPEAL

GAVIN NEWSOM, in his
ofﬁcial capacity as the
[ECF No. 36]
Governor of California, et al.,
(Filed May 18, 2020)
Defendants.

Plaintiffs South Bay United Pentecostal Church
and Bishop Arthur Hodges III ﬁled a motion for temporary restraining order. (ECF No. 12.) On May 15,
2020, the Court held a telephonic hearing on the motion and denied the motion. (ECF No. 32, 38 (transcript
of hearing).) That same day, Plaintiffs ﬁled a notice of
appeal. Plaintiffs also ﬁled an ex parte motion seeking
an injunction pending the appeal. (ECF No. 36.)
Federal Rule of Appellate Procedure 8(a)(1) provides that “[a] party must ordinarily move first in
the district court for . . . (C) an order . . . granting
an injunction while an appeal is pending.” Fed. R. App.
Proc. 8(a)(1). Federal Rule of Civil Procedure 62(d) provides that “[w]hile an appeal is pending from an

72a
interlocutory order or ﬁnal judgment that grants, dissolves, or denies an injunction, the court may suspend,
modify, restore, or grant an injunction on terms for
bond or other terms that secure the opposing party’s
rights.” Fed. R. Civ. P. 62(d). The standard for granting
an injunction pending appeal is generally the same as
the standard for granting a preliminary injunction.
Humane Soc’y of U.S. v. Gutierrez, 523 F.3d 990, 991
(9th Cir. 2008).
Having reviewed Plaintiffs’ arguments, the Court
DENIES the instant Motion for the same reasons
stated on the record at the telephonic hearing on Plaintiffs’ motion for temporary restraining order. (See ECF
No. 38.)
IT IS SO ORDERED.
DATED: May 18, 2020
/s/ Cynthia Bashant
Hon. Cynthia Bashant
United States District
Judge

73a
APPENDIX F
U.S. District Court
Southern District of California
Notice of Electronic Filing
The following transaction was entered on 5/15/2020 at
11:48 AM PDT and ﬁled on 5/15/2020
Case Name:

South Bay United Pentecostal
Church et al v. Newsom et al
Case Number: 3:20-cv-00865-BAS-AHG
Filer:
Document Number: 32(No document attached)
Docket Text:
Minute Order for proceedings held before Judge Cynthia Bashant: Motion Hearing (telephonic) held on
5/15/2020. For the reasons stated in the hearing, the
Court grants [29] Ex Parte MOTION for Leave to File
Supplemental Authority in Support of Plaintiffs Application for a Temporary Restraining Order ﬁled by
South Bay United Pentecostal Church, Bishop Arthur
Hodges III; denies [12] Ex Parte MOTION for Temporary Restraining Order and Order to Show Cause re:
Preliminary Injunction ﬁled by South Bay United Pentecostal Church, Bishop Arthur Hodges III; and denies
[21] Ex Parte MOTION for Leave to File Application
for Leave To File Request for Judicial Notice Pursuant
to Federal Rule of Evidence 201 ﬁled by South Bay
United Pentecostal Church, Bishop Arthur Hodges III
(Court Reporter/ECR Dana Peabody). (Plaintiff Attorney Paul Jona, Charles LiMandri, Jeffrey Trissell, and
Mark Meuser).(Defendant Attorney Todd Grabarsky,

74a
Lisa Plank, and Timothy White). (no document attached) (sxm)

75a
United States District Court
for the Southern District of California
SOUTH BAY UNITED
PENTECOSTAL
CHURCH, etc., et al.,
Plaintiffs,
v.
GAVIN NEWSOM, etc.,
et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

No. 20cv0865-BAS
May 15, 2020
San Diego, California

TRANSCRIPT OF MOTION HEARING
BEFORE THE HONORABLE CYNTHIA BASHANT
United States District Judge
APPEARANCES:
For the Plaintiffs:

LiMANDRI & JONNA LLP
CHARLES S. LiMANDRI
PAUL MICHAEL JONNA
JEFFREY M. TRISSELL
Attorneys At Law
DHILLON LAW GROUP
MARK PHILIP MEUSER
Attorney at Law

For the Defendants: CALIFORNIA ATTORNEY
GENERAL’S OFFICE
TODD GRABARSKY
Attorney at Law

76a
OFFICE OF THE COUNTY
COUNSEL TIMOTHY M.
WHITE
Attorney At Law
[2] San Diego, California, May 15, 2020
***
THE CLERK: Thank you, Counsel, and everybody for being on the line so promptly.
This is Stephanie, Judge Bashant’s clerk. I just
wanted to give a quick admonishment before we get
started and I call the case.
The same courtroom decorum applies as though
we were actually in the courtroom versus telephonic.
The members of the public and media, if you could
please mute your phones and make sure they stay
muted. Counsel is the only one permitted to provide
argument. There are also no recordings of any type. We
have our Ofﬁcial Court Reporter, Dana Peabody, on the
phone, and she is the one who will provide the ofﬁcial
court transcript, and you may request it through her.
And with that, I believe I will go ahead and call
the case.
Calling Matter Number 1, 20cv0865, South Bay
United Pentecostal Church versus Newsom, et al., on
calendar for a motion hearing telephonically.
THE COURT: Counsel, state your appearances for the record, please.

77a
MR. JONNA: Good morning, Your Honor.
Paul Jonna on behalf of plaintiff South Bay United
Pentecostal Church and Bishop Arthur Hodges III, and
I’m joined by my colleague, Jeffrey Trissell.
[3] THE COURT:

Good morning.

MR. MEUSER: Mark Meuser, also here on
behalf of the plaintiff, with the Dhillon Law Group.
MR. LiMANDRI: Charles LiMandri with my
partner, Mr. Jonna, who will be arguing the case this
morning.
THE COURT:

Good morning.

MR. WHITE: Good morning, Your Honor.
This is County of San Diego for the – County Counsel’s
ofﬁce for the County of San Diego, defendant.
THE COURT:
MR. WHITE:
THE COURT:

And I missed the name.
Timothy White.
Thank you.

MR. GRABARSKY: And good morning, Your
Honor. This is Deputy Attorney General Todd Grabarsky on behalf of the state defendants, Governor
Gavin Newsom, Attorney General Xavier Becerra, and
Public Health Ofﬁcer Dr. Sonia Angell.
THE COURT: Okay. Good morning, everyone, and thank you all for agreeing to appear telephonically. I know it’s not easy. We’re kind of talking on top

78a
of each other. I’ll try to make sure that I give you each
a chance to be heard.
If anyone has any difﬁculty hearing anything,
don’t hesitate to let me know, and I’ll make sure that it
gets repeated. Sometimes when people come on the
phone last minute, there’s a beep, and it blocks out
whatever anyone is saying, so feel free to let me know
if you’re having any difﬁculty [4] hearing what anyone
has said.
First of all, I want to let everyone know I’ve reviewed plaintiffs’ amended complaint, I reviewed all
the attached rules promulgated by the State of California that were attached to the complaint, I reviewed
plaintiffs’ motion for a TRO with the various requests
for judicial notice, the state and the county’s ofﬁce, I
reviewed plaintiffs’ objections to defendants’ responses
as untimely. That will be denied.
I also reviewed plaintiffs’ leave to ﬁle supplemental authorities, which will be granted. I have reviewed those authorities.
My understanding is the plaintiffs are not objecting to the initial closure order or the initial decision
classifying some businesses as essential and others as
not, and, therefore, this is not challenging the same order as the one I already addressed in the Abiding Ministry case.
Instead, plaintiffs have ﬁled this amended complaint objecting to the state’s plans for reopening,

79a
speciﬁcally the classiﬁcation of churches and religious
services as Stage 3 out of four stages of reopening.
Plaintiffs ask that religious services be classiﬁed
as Stage 2 and that they be allowed to begin services
immediately.
As a preliminary matter, there are numerous requests for judicial notice, most of which I think should
be denied as moot or unnecessary.
[5] First of all, with respect – with respect to the
request that has to do with the number of deaths, I
think that the actual request for judicial notice talks
about deaths and population and types of death in the
State of California, although I think the numbers actually reﬂect those that are for San Diego County, not
for the State of California, but regardless, I think that
the numbers in San Diego County are largely irrelevant.
Plaintiffs seem to concur that the coronavirus is
real, that the Government has a compelling interest in
curbing the virus, that the stay-at-home orders further
that interest, and simply focusing on one county in a
state that is as mobile as California is too limiting.
Ultimately I don’t ﬁnd that the number of deaths
in San Diego County are particularly helpful in my
analysis of the stages of reopening.
I also don’t think I need to take judicial notice of
the governor’s orders. They’re attached to the complaint already, but to the extent it is necessary, I’ll take
judicial notice of the orders, particularly those that

80a
outline the plan for reopening because ultimately
that’s what plaintiffs are challenging in this case.
And ﬁnally, I don’t think I need to take judicial notice of opinions from other courts. I can actually look at
them and consider them without taking judicial notice
of them. The ones [6] from other district courts are not
binding, but certainly the analysis of other courts can
be helpful.
So let me talk about the actual restraining order
request. First of all, I’m prepared to ﬁnd that irreparable harm will occur to the plaintiffs if I don’t grant the
TRO. Plaintiffs don’t have to address that prong.
But I do have concern about all the other prongs,
and here’s sort of my preliminary thoughts, and then
I’ll be interested in hearing from each of you:
First of all, it appears to me that the stages in California’s reopening plan are carefully focused on the
risk each workplace poses. In other words, we have
Stage 2, which is a lower-risk workplace; initially
curbside only and then types of facilities where one
moves through quickly without long periods of time together. Entering these workplaces in the Stage 2 are –
they’re places that are by their nature transitory.
You’re just going in for the purpose of picking something up, and then you’re leaving.
Stage 3 are higher-risk workplaces, those which by
their nature involve people gathering in close proximity with one another for extended periods.

81a
And then we’ve got Stage 4, which is the highest
risk, so very large groups, like rock concerts, conventions, events held at sporting venues.
None of this seems to me to be targeted or focused
on [7] limiting religion. If your religion involves walking into a church, a few people at a time, keeping six
feet apart, picking something up from the church, and
going home with you, then it seems to me that would
be a Stage 2 workplace.
But unfortunately, religious services generally involve sitting together as a group. I note that in plaintiffs’ case, plaintiffs are proposing services involving
groups of 200 to 300 congregants per service, and beginning with Bible classes of ten to 100 people, and
that they describe practices – or Bishop Hodges describes practices consisting of having people with special needs or sickness come stand around an alter
where hands are laid on them and they are anointed,
challenging congregants to all approach the alter at
once to come believing, come praying, and practicing
baptism by full immersion in the water on a weekly or
daily basis.
This seems to me to be a higher-risk environment
than one where you just pick something up either at
curbside or walk through a store, pick something up,
pay for it, and walk out. It’s not a value judgment. It’s
not a judgment about what’s more important or what’s
more valuable than the other. It’s simply a determination of what activity poses the higher risk for infecting
others.

82a
So I just don’t see how strict scrutiny applies, but
I’ll certainly be interested in hearing what you have to
say.
So let me start with the plaintiff. I believe it’s [8]
Mr. Jonna who is going to be speaking. Those are my
preliminary thoughts.
MR. JONNA:

Yes, Your Honor. This is Paul

Jonna.
Thank you for those thoughts, and thank you for
reviewing the voluminous materials in such a short
amount of time.
Your Honor, the problem with these orders in the
reopening plan is that there’s arbitrary exceptions and
unequal treatment of churches.
So the government can’t explain, for example, why
factories and schools, which don’t involve transitory –
you know, transitory measures – why those places can
open in Stage 2 but not churches.
So what they’ve tried to argue without support is
that places of worship are sidelined for scientiﬁc reasons, but we – large gatherings at factories and schools
where people gather indoors for hours are able to reopen.
So under Lukumi, the state has the burden to explain why they’re making the distinction in order to
meet strict scrutiny, and they have not.
The answer can’t be that factories and schools are
just more important. The right to practice your faith,

83a
you know, is a ﬁrst right in the First Amendment. The
government has to treat it equally. It can’t be viewed
as less important, and that’s why most other states,
Your Honor, took steps to protect the constitutional
rights of churches and religious believers. [9] California was one of only nine states that didn’t, and as the
Court knows, there’s four federal courts that have held
that these types of orders are not generally applicable
and that they must satisfy strict scrutiny. And we have
a Sixth Circuit case, we have the On Fire Christian
case, which said, “No place, not even the unknown, is
worse than any place the state forbids the exercise of
your sincerely held religious beliefs.” And we have the
First Baptist case in the District of Kansas, which involves in-person services. And the Tabernacle Baptist
case, which is very similar to our case, where the Court
said, “If social distancing is good enough for Home Depot and Kroger, it’s good enough for in-person religious
services, which, unlike the foregoing, beneﬁt from constitutional protection.”
So we believe strict scrutiny applies because gathering for worship is prohibited, but not other gatherings.
And, Your Honor, we’re not dealing with neutral
laws of general applicability. The orders are riddled
with exceptions. For example, Governor Newsom just
last week said that churches fall under the category of,
quote, low-reward activity. Those were his words. He
didn’t just say high risk, but he said “low reward.” He
initially determined that marijuana dispensaries, liquor stores, the entire entertainment industry, and now

84a
factories and museum, those are higher-reward activities, so those are the kinds of arbitrary assessments,
Your Honor, that are unconstitutional. Going to a factory or a museum is not [10] constitutionally protected,
but freely exercising –
THE COURT: Let me just – I’m going to interrupt you for a minute because when I read through
the order, I didn’t see that museums – I have to hear
from the state about exactly what is, but I don’t believe
that some of the things you’re saying should be opened
under Stage 2 or were listed as being opened under
Stage 2.
MR. JONNA: Sure, Your Honor. The fact –
certain manufacturing factories were allowed to be
opened from the beginning, and certain ones – the rest
of them are allowed to reopen in Phase 2, and if I’m
misstating that, I’m sure the state will correct me.
As far as museums, what the governor said is outdoor museums can start opening in Stage 2, but an outdoor museum is, you know – I’m not sure why they’re
making the distinction with a museum versus an outdoor church service, for example. Again, freely exercising your religion is the very ﬁrst right in the First
Amendment. And for the millions of faithful in California, religion is needed in these times more than ever.
It might be hard for government ofﬁcials to understand
that, especially if they’re hostile to religion or don’t see
its relevance or they think it’s low reward, but to
Bishop Hodges and millions of Californians, free exercise of religion is eternally important. To them, it’s the

85a
most essential of activities. It’s the reason why many
people came to this great [11] country to begin with,
including the Pilgrims, who were religious refugees.
So basically, Your Honor, the government ofﬁcials
shouldn’t be able to tell millions of people of faith that
their religious worship is low reward and nonessential.
That’s hostility toward religion, and this Court has an
incredible opportunity to correct these constitutional
violations.
And as Your Honor knows, the Department of Justice, the U.S. Department of Justice, shares these concerns. They’ve issued statements and intervened in
multiple similar federal actions, and, Your Honor, the
facts have changed considerably since Your Honor
ruled in the Abiding Place Ministries case. Mr. White,
who’s on the phone, who also argued that matter, he
said on April 10th that the next few weeks were critical
and necessary to ﬂatten the curve. And that’s now happened. The curve has ﬂattened, and the healthcare system has not been overwhelmed. In fact, they’ve had to
lay off workers. The governor acknowledged these
facts, and they’re supported by Dr. Delgado’s declaration.
And, Your Honor, we had – and I know you said in
your initial remarks that you weren’t focused so much
on San Diego, but I do think it’s signiﬁcant that we’ve
had less than 200 deaths in a county with a population
of 3.3 million. I mean, every human life is precious, and
we all wish there were zero deaths, but the data has to
matter, Your Honor. And it’s that [12] data the

86a
government is relying on to say that you can now
gather at factories and schools.
So even if the numbers go up again in the fall, the
solution can’t be to close the churches again. There has
to be a balance where the Constitution is followed and
people can still practice their faith without the government dictating that it has to be done in the conﬁnes of
their home.
And I read statements in both the defendants’
briefs that are simply not true, and Your Honor repeated some of them, I assume, because they were
stated in the defendants’ briefs, but let me just clarify.
My clients do not want to resume normal worship services. That’s just not true. We made it clear many times
that they should only be allowed to open in Stage 2
provided that they follow all of the government public
health measures and social distancing guidelines, and
that’s exactly what the court said in the recent Tabernacle Baptist case, which is very instructive and similar to our case.
In that case the Court granted the plaintiffs’ TRO
and found that the church should be allowed to hold
in-person services, not drive-in, since the church was
committed to following the CDC’s guidelines on large
gatherings, practicing social distancing, and –
THE COURT: I’m confused. Let me interrupt you a minute because – and I can see why the
state might have been confused as well because Bishop
Hodges talks about how [13] important it is to resume
the religious activities, including the laying on of

87a
hands and approaching the alter. Is he not requesting
to do that by this TRO?
MR. JONNA: Your Honor, no. I mean – essentially, I think in these papers he described what
they do – what’s important to their faith, but he made
it abundantly clear multiple times, and he will certainly reafﬁrm it if it’s necessary, that he will only resume services by complying with every single
guideline that other businesses are required to comply
with.
So if, for example, that means that certain things
that are done normally have to be suspended because
of these guidelines, these social distancing guidelines,
that will be done.
And then the Delgado declaration, Your Honor,
had a long list of things that churches could and should
do to responsibly resume services, and it included not
singing, for example, it included not having booklets or
hymnals that would be reused, it included single-ﬁle
lines, it included, you know, not having Holy water in
the church. All sorts of things can be done, and people
of faith are willing to do them, and Bishop Hodges is
certainly willing to do them, so it’s absolutely not the
case that he just wants to get 300 people in there this
Sunday. I mean, he wants to meticulously follow these
guidelines, and he can.
He’s proven he can, Your Honor, by virtue of the
fact that [14] they feed thousands of people. They’re
one of the most charitable organizations in the South
Bay region. They’re using masks and gloves. They’re

88a
distributing food to thousands of people. We included a
photo. They’ve done it safely, and, you know, the county
and the government are happy to have the church, you
know, serve in that way, and they’re willing to resume
services in a responsible way, and they’ve shown they
can, and other churches across the country have shown
they can, and so – and, Your Honor, again, I would say
the Delgado declaration has a great summary of how
this can be done, how it should be done, how it has to
be done.
And I’m not going to address irreparable harm because Your Honor correctly pointed out that that’s easily shown, and I do have some thoughts on Jacobson,
but I won’t get into that since Your Honor didn’t mention it.
I do also have some thoughts on other cases, but
that’s – those are my main points, and I’m happy to
address the state or the county’s argument on rebuttal.
THE COURT:
state then ﬁrst.

Okay. Let me hear from the

MR. GRABARSKY: Good morning, Your
Honor. This is Deputy Attorney General Todd Grabarsky on behalf of the state defendants.
We’re dealing with an emergency situation involving a highly technical public health issue where, really,
the stakes [15] couldn’t be higher, and those stakes being a signiﬁcant risk of severe illness and death on a
massive scale. It is these – the situation that warrants
judicial deference to the governor’s good-faith order.

89a
And Your Honor has already stated in Your
Honor’s opening remarks that this order furthers a
compelling government interest. Jacobson acknowledged this over a hundred years ago, that it is no part
of the function of the Court to determine which one of
two modes is likely to be the most effective for the protection of the public against disease.
And in the Abiding Place ruling, Your Honor recognized this important principle brieﬂy quoting, “It’s
important that this Court not usurp the state’s authority to craft emergency health measures. The Court
shouldn’t be second-guessing the wisdom or efﬁcacy of
these measures as long as they have some basis in reality and they aren’t pretextual.”
And that’s exactly what plaintiffs are asking the
Court to do in this case; not only to second-guess the
well-reasoned decisions of the governor and the public
health ofﬁcer that based on science, data, facts, and experts in infectious disease and epidemiology and public
health, but more so, they’re asking the Court to disrupt
the state’s careful and well-reasoned measures to combat this extraordinary once-in-a-century public health
emergency.
I’ll note that – and the reopening road map is really a [16] crucial part of those measures, and I’ll note
that the road map is – it’s a work in progress. It’s going
to change based on the data and how conditions on the
ground change, and once we gather the data based on
how the virus responds to some reopenings, the state

90a
and the public health ofﬁcer will make adjustments
based on that data and those responses.
The reopening road map calls for careful and gradual measures to see how the virus and the contagion
responds to a step-by-step staggered reopening. The
state will look at that data, whether infection or death
rates change, and adapt the reopening measures accordingly.
THE COURT: What about the argument of
plaintiff that there’s so many arbitrary exceptions that
it’s, they feel, singling out religion?
MR. GRABARSKY: I’ll underscore Your
Honor’s remarks this morning that the exceptions are
based on the risk factors. They’re not arbitrary based
on the content of what’s going on at the different activities. They’re based on the risk factors. And I’ll note
that contrary to what plaintiffs’ counsel is saying,
schools, as of yet, are not open. The reopening road map
suggested in the future that schools might reopen, but
at present, schools are not permitted – they’re still operating remotely, and they’re not permitted to be – to
hold in-person classes or instruction.
With regard to factories, again, that’s based on the
risk [17] factors. As Your Honor pointed out, these are
leaving transitions. These aren’t mass groups of people
gathered together for a communal experience.
What plaintiffs are seeking to do, and I understand perhaps the confusion behind this, given that the
temporary restraining order they’ve requested is a bit

91a
vague and abstract, but it appears that what they’re
asking to do is gather indoors with groups of hundreds
of people together for the same purpose.
And I’ll also note that from the onset, the state has
recognized the fundamental rights of religious exercise. Since the beginning of the executive order, faithbased services have been deemed as essential services
that would allow plaintiff to leave their home to provide congregants with worship opportunities through
various technology and free – the free online streaming
or teleconferencing platform or through drive-in services provided that congregants remain in their cars,
observe distancing, and refrain from physical contact.
This notion that the state has been hostile to religion just simply isn’t supported by the facts and how
the executive order has treated religion and faithbased groups from the onset.
In other words, there’s no complete or total prohibition on the ability to worship. This argument was addressed by these other district courts in California, the
Gish case and the Cross Culture case – the Gish case
from the Central District [18] and the Cross Culture
case from the Eastern District.
With regard to plaintiffs’ counsel citing to the
Sixth Circuit case, I think it’s important to note that
the Sixth Circuit didn’t go so far as to enjoin Kentucky’s prohibition on any person gathering for worship. The Sixth Circuit injunction only applied to the
prohibition on drive-in services, and that was true with
the On Fire district court Kentucky case. With regard

92a
to the reference to the Tabernacle, the Tabernacle case,
also from Kentucky, that seems to go against the Sixth
Circuit’s, I guess, refusal to enjoin the in-person ban on
– the ban on in-person gatherings.
I’ll also note that plaintiffs’ counsel has suggested
that the United States Department of Justice had intervened in other cases. That doesn’t seem to be supported by the facts.
I think in two cases, U.S. DOJ had issued letters.
There was no motion to intervene in those cases at all.
And yeah, and ﬁnally just to touch on the notion
that there have been arbitrary exceptions, again, the
exceptions are not arbitrary. They’re based on what are
gatherings, what are groups of people gathered together for communal experience, and plaintiffs simply
haven’t shown that comparable analogous gatherings
to the hundreds of people in an enclosed space that
they’re seeking have been permitted.
And I’m happy to address any other questions that
the Court has or that plaintiffs may raise.
[19] THE COURT:
have anything to add?
MR. WHITE:

Okay. Does the county

Just brieﬂy, Your Honor.

I think the state has done a great job explaining
their orders because they are state orders, and the
county has adopted them by incorporation or reference.

93a
I would just point out that the state had the second highest number of deaths since this pandemic
started just the week ending on Mother’s Day, so this
is not over by a long shot. This still is a public health
danger that the state and the county ofﬁcials, the public health ofﬁcials, are responding to and trying to protect the community as best as they can while also
protecting everybody’s constitutional rights.
There have been churches, as we’ve mentioned in
our briefs, that have been found, church settings to be
what they call superspreader events, and there seems
to be something about indoor congregation, for extended periods of time especially, that are dangerous
with this virus.
Everything’s still being learned in real time, but
that seems to be a real concern, a real threat, especially
when you have people singing and standing close together, and I think that’s why in Stage 3, you’ll see that
movie theaters, concerts, other events that may be similar that are not religious are also in Stage 3 and so I
don’t think there [20] really can be an argument that
the state or the county are targeting religion or religious practices. That’s just not borne out by the facts
or the order.
I think it would be a mistake to constitutionalize
on a church-by-church basis, for example, these public
health issues that are – that public health experts
need ﬂexibility.
Things are changing rapidly. New data are coming
in all the time and new studies are being released and

94a
analyzed. And the public health ofﬁcials have scarce
resources, so they set up these stages to really protect
the community on a general level based on the science
and the data at that time. To have to have them analyzed on a church-by-church basis based on whether
this church is going to have 50 people in a room, what
size the room is, what square feet, or versus 200, it’s
not something I think that is reasonable in the middle
of a public health crisis, in the pandemic, when they’re
trying to protect an entire county or an entire state.
I think under Jacobson, this is just the type of situation that Jacobson applies to, and I think that’s why
all three courts that have reviewed the state stay-athome order in California of the churches so far have
upheld it and found that it is not discriminatory, that
it is not arbitrary, and if Jacobson would not apply,
then certainly Smith applies.
Under Lukumi, we need to show, either by express
actions or implication, some desire or intent on public
ofﬁcials to [21] target or discriminate against a religious practice from animus. That’s certainly not shown
here.
These are orders that apply to religious and secular practices. Thank you.
THE COURT:
or any response?
MR. JONNA:

Okay. Mr. Jonna, any rebuttal
Yes, Your Honor. Thank you.

As far as Jacobson, I know the Court is familiar
with the case which involves vaccination and didn’t

95a
deal with the constitutional right to free exercise of religion, and it’s not clear that Jacobson applies to free
exercise.
The Court in First Baptist Church refused to apply
it. And under the case, an emergency rule is, as the
Court knows, invalid if it has no real or substantial relation to those objects of protecting public health or if
it’s beyond all question a plain, palpable invasion of
rights secured by the fundamental law. And the state
or – neither the state nor the county have really explained why letting large numbers of people sit together indoors in a factory is okay, but not getting
together for an hour of worship following the government guidelines.
And that’s really the issue. You know, the county
focuses on the fact that the coronavirus is serious and
needs to be curbed, and we’re not disputing that, but it
doesn’t answer the question of what the factual or scientiﬁc basis for [22] distinguishing manufacturing
from churches, and there is a palpable invasion of free
exercise of rights. Under Lukumi and Fraternal Order
of Police, churches have a right to be treated equally to
secular interests, and if one exception that undermines
that interest is granted, then religious exemptions
must be granted too.
And it’s also clear from the governor’s statements
that they – that the state views religion as a low-reward activity despite the fact that it’s constitutionally
protected activity.

96a
And as far as, Your Honor, the evidence that shows
that schools, factories, and museums are all part of
Phase 2, I would point the Court to Exhibit 1-3 attached to our ﬁrst amended complaint. It’s not really –
I think the state was careful in how they phrased it.
They said they’re not yet open in Phase 2, but they are
deﬁnitely unquestionably part of the Stage 2 reopening
whereas churches are not.
As far as, you know, I think the state or someone
mentioned indoors – I mean, I’m sure many churches
will be willing and glad to have services outdoors if
that was an option.
And as far as, you know, just telling all the people
of faith in California that they have to – that drive-in
services and live-stream services are going to have to
sufﬁce for your constitutionally protected exercise of
religion, that’s going to have to sufﬁce until we say so,
without looking at the data, without looking at the
numbers, that’s just not [23] acceptable to people of
faith, and it’s not consistent with our Constitution.
As far as the cases, Your Honor, there are cases,
and that I cited, the First Baptist case and the Tabernacle Baptist case, which both deal with in-person services, not drive-in services.
And as far as the superspreading that the state
mentioned, that church activities, there’s no evidence
before this Court that any of those services were following the government guidelines that my client and
all the other churches are willing to responsibly follow

97a
to resume responsible worship services like millions of
other faithful are doing across this country.
So I think there’s just – there is no evidence that
allowing – you know, making an exception for churches
similar to the ones they’re making for factories and
schools is going to really make this – make the epidemic any worse than it already is. In fact, I think the
evidence is to the contrary.
THE COURT:

Okay. Thank you, all.

Go ahead.
MR. GRABARSKY: This is Todd Grabarsky
for the state defendants. May I just respond to one
point very brieﬂy?
THE COURT:

Sure.

MR. GRABARSKY: To plaintiff counsel’s
contention that just because there’s secular exception
means that there has [24] to be an exception for religious practices, that’s just simply not supported by the
case law. This Court in Whitlow acknowledged that,
quote, nowhere has the supreme court stated that if
the government provides secular exception, it must
also provide a religious exception. Indeed, a majority of
circuit courts have refused to interpret Employment
Division versus Smith as standing for the proposition
that a secular exemption automatically creates a claim
for a religious exemption, and this principle has been
acknowledged in over – I think over 15 – or over a
dozen cases dealing – across the country dealing with
religious challenges to stay-home orders across the

98a
country that plaintiffs, in this argument or in their
brieﬁngs, have not addressed. They’ve only touched on
a few cases from Kentucky, and again, those cases go
against the Sixth Circuit ruling, which did not enjoin
in-person religious services.
THE COURT:

Thank you, all.

MR. JONNA: There was one last thing – this
is Paul Jonna – I wanted to say, and I’m sorry, Your
Honor. It’s the last thing.
To the extent the Court is willing to reconsider the
tentative, I just respectfully ask the Court to take a
quick look at the ex parte Milligan, U.S. Supreme
Court case, because it makes clear that the reason the
Bill of Rights was added was out of a concern that rulers would use the fear of an emergency [25] to seize
power and take away constitutional rights, and I really
think that – it’s an old case, but it’s a very interesting
and on-point case that I think is worth consideration.
Thank you, Your Honor.
THE COURT:

Okay. Thank you.

And by the way, I have read Milligan. I’ve worked
my way through it this morning. But, you know, I don’t
really ﬁnd Milligan – you know, it has some wonderful
phrasing, but I don’t really ﬁnd it that applicable given
the fact that it has to do with suspending the writ of
habeas corpus during a time of war when there was a
trial by jury available. There were a lot of things about
it that were distinguishing, but I did review it.

99a
So, ﬁrst of all, I will deny the motion for a temporary restraining order. I do not ﬁnd that plaintiff has
shown a likelihood of success on the merits of any of its
four causes of action.
First of all, with respect to the Free Exercise
Clause causes of action from the U.S. Constitution, as
I said in the Abiding Place Ministries case, the state
may limit an individual’s right to freely exercise his religious beliefs when faced with a serious health crisis
such as the one we’re facing now with covid-19, and I
don’t think plaintiffs really disagree with that.
[26] The right to practice religion freely does not
include the liberty to expose the community to communicable disease or to ill health or death.
And despite plaintiffs’ objections, I ﬁnd that Jacobson is still good law and still applicable to this case.
California’s reopening plan seems to me to be a
neutral law of general application that happens to
have the incidental effect of burdening a particular religious practice.
Under The Church of Lukumi, L-U-K-U-M-I for
our court reporter, Babalu Aye, B-A-B-A-L-U A-Y-E,
versus city Hialeah, H-I-A-L-E-A-H, and that’s at 508
U.S. 520 – under that case, it talks about what a law of
neutrality and general applicability is and if it does not
aim to, quote, infringe upon or restrict practices because of their religious motivation, closed quote, and if
it does not, quote, in a selective manner impose

100a
burdens only on conduct motivated by religious belief,
closed quote.
And it seems to me that a religious service falls
within Stage 3 not because it’s a religious service, but
because the services involve people sitting together in
a closed environment for long periods of time. Thus,
any burden placed by classifying church services as
Stage 3 are not because of a religious motivation, but
because of the manner in which the service is held,
which happens to pose a greater risk of exposure to the
virus. And I note, there’s lots of other [27] things: The
SATs; the California Bar exam; lots of other events
that involve people sitting together in a closed environment for long periods of time that are also not being
allowed to go forward.
Plaintiffs have not demonstrated arbitrary exceptions to this classiﬁcation, and the fact that there may
be a secular exemption, as the state points out, does
not automatically give a religious exemption, and
again, as the state did, I refer to the Whitlow case. I
don’t ﬁnd that strict scrutiny applies, and I do ﬁnd that
the reopening order is rationally based on protecting
safety and stopping the virus spread.
Turning to the California Constitution claim,
again, that reopening violates the California Free Exercise Clause, ﬁrst, I’d note that although plaintiff cites
the Catholic Charities case to argue that strict scrutiny
should be applied to any California Constitution claim,
I think the Catholic Charities case doesn’t ﬁnd that
strict scrutiny applies. Instead, the Court in that case

101a
found that they didn’t need to determine the appropriate test because even under a strict scrutiny analysis,
the claims pass muster, and I ﬁnd the same in this
case.
To satisfy strict scrutiny, the state must demonstrate that the order is narrowly tailored to further
compelling government interests.
First, of course, there’s a compelling government
interest in safety and health. I don’t think plaintiffs
dispute this, [28] and I do ﬁnd that the order is narrowly tailored to this purpose as well. The order allows
congregants to gather remotely, to gather over the
phone, or via video conference, in person with members
of the same household, it allows clergy to travel to
churches to set up services for congregants to experience remotely, the county now has opened to allow congregations to gather by car in drive-in style services as
long as the physical distancing guidelines are followed
and as long as people don’t touch each other. Individuals can practice religion in whatever way they wish as
long as they’re not sitting with each other in large
groups inside.
Thus, I ﬁnd that the reopening plan has been narrowly tailored to further a compelling government interest, and it does pass the strict scrutiny analysis.
Therefore, I ﬁnd that plaintiff has not established
that they are likely to succeed on their California Constitution claim.

102a
Turning to the equal protection claim, the Equal
Protection Clause does not forbid classiﬁcation. It
simply keeps governmental decision-makers from
treating differently persons who are in all relevant aspects of life, and that’s a quote from Nordlinger, N-OR-D-L-I-N-G-E-R, versus Hahn, H-A-H-N, 505 U.S. 1 at
10.
Here the state’s distinguishing between businesses where people are more at risk and businesses
where people are less at [29] risk, and the classiﬁcation
between these stages is based on the type of activity
that occurs within the business and the risk of contracting the virus while participating in that activity;
therefore, the government is not treating differently
businesses that are alike. Religious services are
treated similar to other activities where large groups
come together for a period of time, like movies, concerts, theater, or dance performances.
Because plaintiff has no evidence that similarly
situated persons or businesses are treated differently,
they failed to show a likelihood of success on their
equal protection claim.
And then ﬁnally, plaintiffs claim that the reopening plan violates the 14th Amendment, Due Process
Clause. Substantive due process, quote, forbids the
government from depriving a person of life, liberty, or
property in such a way that shocks the conscience or
interferes with rights implicit in the concept of ordered
liberty. And that’s a quote from Nunez versus City of
Los Angeles, 147 F.3d 867. It’s a Ninth Circuit case, and

103a
that’s at 871. Any shock-the-conscience analysis necessarily requires consideration of the justiﬁcation the
government offers, if any, for the alleged infringement,
and that’s referring to Reno versus Flores, 507 U.S. 292
at 301 and 302.
I ﬁnd that given the circumstances and the state’s
justiﬁcation for the stay-at-home orders as well as the
[30] planned reopening of the state in stages, plaintiffs
have not established that the state order shocks the
conscience.
Furthermore, I don’t ﬁnd that either the balance
of equities or the public interest supports issuing a
TRO. This virus poses a serious health risk to everyone
in the state; in fact, everyone in the world. I don’t think
anyone here is arguing with that. The only way currently known to curb the disease is to limit personal
exposure. California seems to be doing a pretty good
job of controlling the spread, but they have to continue
to monitor how each stage of reopening with the increasing risk of each one affects the overall number of
infections.
I understand it’s difﬁcult for everyone involved,
but it is in the public interest to continue to protect the
population as a whole.
Therefore, the motion for the temporary restraining order is denied.
Okay. Thank you, all, for your patience and working through this together. I appreciate it.
MR. JONNA:

Thank you, Your Honor.

104a
MR. WHITE:

Thank you, Your Honor.

MR. GRABARSKY:
THE COURT:

Thank you.

Okay. Thank you.

- - -000 - - [31] [Certification Omitted]

